<html>
<title> - HOW THE LACK OF HIGHER EDUCATION FACULTY CONTRIBUTES TO AMERICA'S NURSING SHORTAGE, PART I</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
   HOW THE LACK OF HIGHER EDUCATION FACULTY CONTRIBUTES TO AMERICA'S 
                                NURSING
                            SHORTAGE, PART I

=======================================================================

                             FIELD HEARING

                               before the

                    SUBCOMMITTEE ON SELECT EDUCATION

                                 of the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                 November 30, 2005 in Greeley, Colorado

                               __________

                           Serial No. 109-29

                               __________

  Printed for the use of the Committee on Education and the Workforce



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov




                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

25-552                 WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001





                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN A. BOEHNER, Ohio, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California
    Chairman                         Dale E. Kildee, Michigan
Howard P. ``Buck'' McKeon,           Major R. Owens, New York
    California                       Donald M. Payne, New Jersey
Michael N. Castle, Delaware          Robert E. Andrews, New Jersey
Sam Johnson, Texas                   Robert C. Scott, Virginia
Mark E. Souder, Indiana              Lynn C. Woolsey, California
Charlie Norwood, Georgia             Ruben Hinojosa, Texas
Vernon J. Ehlers, Michigan           Carolyn McCarthy, New York
Judy Biggert, Illinois               John F. Tierney, Massachusetts
Todd Russell Platts, Pennsylvania    Ron Kind, Wisconsin
Patrick J. Tiberi, Ohio              Dennis J. Kucinich, Ohio
Ric Keller, Florida                  David Wu, Oregon
Tom Osborne, Nebraska                Rush D. Holt, New Jersey
Joe Wilson, South Carolina           Susan A. Davis, California
Jon C. Porter, Nevada                Betty McCollum, Minnesota
John Kline, Minnesota                Danny K. Davis, Illinois
Marilyn N. Musgrave, Colorado        Raul M. Grijalva, Arizona
Bob Inglis, South Carolina           Chris Van Hollen, Maryland
Cathy McMorris, Washington           Tim Ryan, Ohio
Kenny Marchant, Texas                Timothy H. Bishop, New York
Tom Price, Georgia                   John Barrow, Georgia
Luis G. Fortuno, Puerto Rico
Bobby Jindal, Louisiana
Charles W. Boustany, Jr., Louisiana
Virginia Foxx, North Carolina
Thelma D. Drake, Virginia
John R. ``Randy'' Kuhl, Jr., New 
    York

                    Paula Nowakowski, Staff Director
                Mark Zuckerman, Minority Staff Director
                                 ------                                

                    SUBCOMMITTEE ON SELECT EDUCATION

                   PATRICK J. TIBERI, Ohio, Chairman

Cathy McMorris, Washington Vice      Ruben Hinojosa, Texas
    Chairman                         Danny K. Davis, Illinois
Mark E. Souder, Indiana              Chris Van Hollen, Maryland
Jon C. Porter, Nevada                Tim Ryan, Ohio
Bob Inglis, South Carolina           George Miller, California, ex 
Luis P. Fortuno, Puerto Rico             officio
John A. Boehner, Ohio, ex officio


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on November 30, 2005................................     1

Statement of Members:
    Musgrave, Hon. Marilyn N., a Representative in Congress from 
      the State of Colorado......................................     1
        Prepared statement of....................................     2
    Porter, Hon. Jon C., a Representative in Congress from the 
      State of Nevada............................................     3
        Prepared statement of....................................     5

Statement of Witnesses:
    Carparelli, Sue, President & CEO, Colorado Center for Nursing 
      Excellence, Denver, CO.....................................     6
        Prepared statement of....................................     9
    Dierker, Lynn, R.N., Director for Community Initiatives, 
      Colorado Health Institute, Denver, CO......................    12
        Prepared statement of....................................    14
    Lowe-Vaughn, Elise, Operations Director, Workforce 
      Development Programs, Colorado Department of Labor and 
      Employment, Denver, CO.....................................    16
        Prepared statement of....................................    18
    Norton, Kay, President, University of Northern Colorado, 
      Greeley, CO................................................    20
        Prepared statement of....................................    23



   HOW THE LACK OF HIGHER EDUCATION FACULTY CONTRIBUTES TO AMERICA'S 
                        NURSING SHORTAGE, PART I

                              ----------                              


                      Thursday, November 30, 2005

                     U.S. House of Representatives

                    Subcommittee on Select Education

                Committee on Education and the Workforce

                           Greeley, Colorado

                              ----------                              

    The Subcommittee met, pursuant to call, at 10 a.m., at the 
University of Northern Colorado, University Center, Panorama 
Room, 2045 10th Avenue, Greeley, Colorado, Hon. Marilyn 
Musgrave presiding.
    Present: Representatives Musgrave and Porter.
    Mrs. Musgrave. A quorum being present, the Subcommittee on 
Select Education of the Committee on Education in the Workforce 
will come to order.
    We are meeting today to hear testimony on how the lack of 
higher education faculty contributes to America's nursing 
shortage.
    I am very pleased to be here in Greeley today, and I'm 
eager to hear from our witnesses. But, before I begin, I ask 
for unanimous consent for the hearing to remain open for 14 
days to allow Member statements and other extraneous material 
referred to during the hearing to be submitted in the official 
hearing record. Without objection, so ordered.

  STATEMENT OF HON. MARILYN N. MUSGRAVE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mrs. Musgrave. I'd like to thank all of you for being here 
today, and I certainly would like to extend my appreciation to 
Congressman Jon Porter for traveling to Greeley, and I do 
apologize for the weather, Congressman. It's a bit brutal 
today.
    Mr. Porter. It's a beautiful day.
    Mrs. Musgrave. And I'm glad that he's here to learn much 
about this urgent matter. He has been a leader on this issue, 
and I'm very grateful for the insight that he has.
    We all know that our country is facing a nursing shortage 
that will have a significant impact on healthcare in our 
country. Last year, the U.S. Bureau of Labor Statistics 
projected that more than one million new and replacement nurses 
will be needed by 2012.
    According to a 2002 health report, 44 states are expected 
to have shortages of registered nurses by the year 2020. In 
Colorado, the lack of registered nurses is twice the national 
average. The nursing shortage in our state is currently 
estimated to be 11 percent short of demand, and is expected to 
nearly triple to 30 percent by 2020 if current trends continue. 
This is a growing problem that demands our urgent attention.
    Demand for nurses is projected to increase as population 
grows, baby boomers enter retirement, and medical advances 
extend our lifespans. In contrast, the supply of nursing 
professionals is expected to decline, as the number of nurses 
leaving the profession exceeds the number that are entering.
    What many Americans do not realize is that this shortage is 
not simply a matter of inadequate enrollment in nursing 
schools. Thousands of qualified applicants to graduate nursing 
programs are turned away each year because there is a shortage 
of graduate-level nursing faculty.
    A report by the American Association of Colleges of Nursing 
shows that U.S. Nursing schools turned away 32,797 qualified 
applicants from baccalaureate and graduate nursing programs in 
2004 due to insignificant number of faculty, clinical sites, 
classroom space, and budget constraints. More than 2,600 
applicants were turned away from the nursing program in 
Colorado--from nursing programs in Colorado, in 2003.
    Three quarters of the nursing schools point to faculty 
shortages as a reason for not accepting all qualified 
applicants into nursing programs. This academic year, 66 
percent of nursing schools report that they have vacancies and 
they are in need of additional nursing faculty to meet 
additional demand.
    Colorado's shortage of qualified nursing faculty at its 2 
year nursing schools is three times the national average, and 
nearly double the national average at its 4 year schools.
    We anticipate this faculty shortage to escalate in the next 
decade due to budget constraints, increased job competition 
from clinics sites, and the retirement of a greying 
professional of the nursing faculty.
    A wave of faculty retirements is expected within the next 
10 years, between 200 and 300 doctrinally prepared faculty will 
be eligible for retirement each year from 2003 through 2012.
    I am anxious to hear the testimony from our witnesses 
today. I very much appreciate your expertise and I'm proud of 
the efforts that are going on in Colorado to address the 
nursing shortage.
    Colorado educational institutions and health care providers 
are working together to pursue strategies, to strengthen 
faculty recruitment and retention, and it's important for all 
of us that these efforts are very successful.
    I hope that we can identify some strategies today that will 
address the problem of faculty shortage, and I also am very 
pleased to have Mr. Porter here, and I would now like to yield 
to him for any statements that he might have.
    [The prepared statement of Mrs. Musgrave follows:]

  Statement of Hon. Marilyn N. Musgrave, a Representative in Congress 
                       from the State of Colorado

    Good morning. Thank you all for being here today. I would like to 
extend my appreciation to Congressman Jon Porter for traveling to 
Greeley to learn more about this urgent matter. He has been a leader on 
this issue and I am grateful for his insight this morning.
    Our country is confronting a nursing shortage that will have a 
significant impact on the health care in our country. Last year, the 
U.S. Bureau of Labor Statistics projected that more than one million 
new and replacement nurses will be needed by 2012.
    According to a 2002 health report, 44 states are expected to have 
shortages of registered nurses by the year 2020.
    In Colorado, the lack of registered nurses is twice the national 
average. The nursing shortage in our state is currently estimated to be 
11 percent short of demand, and is expected to nearly triple, to 30 
percent, by 2020 if current trends continue. This is a growing problem 
that demands our urgent attention.
    Demand for nurses is projected to increase as population grows, 
baby boomers enter retirement, and medical advances extend life span. 
In contrast, the supply of nursing professionals is expected to decline 
as the number of nurses leaving the profession exceeds the number that 
enter.
    What many Americans do not realize is that this shortage is not 
simply a matter of inadequate enrollment in nursing programs. Thousands 
of qualified applicants to graduate nursing programs are turned away 
each year because there is a shortage of graduate-level nursing 
faculty.
    A report by the American Association of Colleges of Nursing (AACN) 
shows that US nursing schools turned away 32,797 qualified applicants 
from baccalaureate and graduate nursing programs in 2004 due to 
insufficient number of faculty, clinical sites, classroom space, 
clinical preceptors, and budget constraints. More than 2600 applicants 
were turned away from nursing programs in Colorado in 2003.
    Three quarters (76.1%) of the nursing schools point to faculty 
shortages as a reason for not accepting all qualified applicants into 
nursing programs. This academic year (2005-2006), 66% of nursing 
schools report that they have vacancies and are in need of additional 
nursing faculty to meet additional demand.
    Colorado's shortage of qualified nursing faculty at its two-year 
nursing schools is three times the national average, and nearly double 
the national average at its four-year schools.
    We anticipate this faculty shortage to escalate in the next decade 
due budget constraints, increased job competition from clinical sites, 
and the retirement of a ``graying professoriate'' of nursing faculty.
    A wave of faculty retirements is expected within the next ten 
years. Between 200 and 300 doctorally-prepared faculty will be eligible 
for retirement each year from 2003 through 2012.
    I am anxious to hear the testimony from our witnesses today. I am 
very proud of the collaborative efforts in Colorado to address the 
nursing faculty shortage. Colorado educational institutions and health 
care providers are working together to pursue strategies to strengthen 
faculty recruitment and retention.
    It is my hope that we can identify some strategies to address the 
faculty shortage in our country. I welcome your insight so that we may 
work together to prepare a nursing workforce that is prepared to meet 
the health care needs of the nation.
                                 ______
                                 

 STATEMENT OF HON. JON C. PORTER, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF NEVADA

    Mr. Porter. Thank you, Marilyn. I appreciate the kind and 
warm welcome. Certainly, coming from the great State of Nevada, 
I can appreciate the air and the wind is probably blowing from 
Nevada into Colorado. Normally we say, ``What happens in Las 
Vegas, stays in Las Vegas,'' but I think maybe the winds are 
coming from Nevada.
    But, Marilyn, I appreciate your hospitality and your 
friendship, but also your leadership. Marilyn and I were 
elected at the same time, so we were sophomores together.
    Mrs. Musgrave. Yes.
    Mr. Porter. We've been working closely on a number of key 
issues, and one that really cuts to the chase, and it has to do 
with the quality of life of not only residents in Colorado and 
Nevada, but in the country. That's health care and 
professionals.
    To my friend, President Norton, thank you. We had a chance 
to meet in D.C. A few months back, talked about this very 
issue, and I appreciate your leadership for the State of 
Colorado, but also for the country. Thank you for what's 
happening.
    I want to pick on Dan Weaver. Dan didn't make it to the 
airport to pick us up last night, so we had to take a cab. So, 
Dan, I'm sorry that you probably aren't going to have a job 
after today.
    But in all seriousness, Dan, I appreciate your help and 
working with you. I know that Dan's that liaison between the 
process and the professionals, but also the politicians that 
are trying to do the right thing. So, Dan, thank you for 
helping out and being at the airport and getting us here 
safely. Thank you very much.
    My staff is not with me today, so I don't have to use my 
notes, right? I can put these aside? I think we talked about 
this last night, Wanda. I just want to talk a little bit about 
Nevada for a moment, and then give some of my perspectives how 
that impacts Colorado and the rest of the country.
    You know, we're experiencing very similar challenges to 
Colorado. We're, of course, not as large of a state, but we 
have the same challenges. We are one of the fastest growing 
states in the country. We're seeing seven, eight, nine thousand 
people a month moving into Nevada.
    Now, I have no doubt you're experiencing similar growth, if 
not more, but when you look at the size of our state of about 
2.2 million people, it's substantial. And we've grown almost a 
million people in the last decade, so that puts a lot of 
pressure on our infrastructure, our schools, our health care, 
our highways, our air quality--all of these things that we are 
working, and I believe quite effectively in Nevada.
    But we have 18,000 new students, high school and grade 
school students a year. Imagine that, 18,000, and we're being 
two and a half new schools a month in the community of Southern 
Nevada. We're hiring close to 2,500 new teachers a year. We're 
hiring 5,000 new support staff a year into our school district.
    But all of that aside, health care is right in there with 
the challenges. So we have multiple level of challenges. One, 
of course, is recruiting and finding health care professionals 
because of the massive growth. We need 1,000--minimum 1,000 new 
nurses and professionals in health care a year. A thousand. We 
have a shortage, really, of higher education institutions 
that--because we're a small state, but fortunately there's a 
few that have been specializing in health care.
    Nevada State College, which is one of my favorite projects, 
it's a new college in Southern Nevada, part of the university 
system, that's specializing in accelerated nursing, and we've 
been working with President Norton and the president of the 
school in Henderson, Nevada, trying to learn from each other's 
challenges and each other's successes.
    But, quality of life is really the key, and we want to make 
sure that Nevadans and Coloradans and the rest of the country 
have the absolute best health care in the world, and I believe 
that we have it, but there are times we have a challenge in 
delivering it because of a shortage.
    And there's multiple ways to reach that goal, but not only 
do we need more educating professionals, we need, of course, 
more teachers that have expertise in health care. We need to 
make sure that our neighbors and friends and graduates, and 
even those looking for a change in career who want to get into 
the nursing profession. We want to make sure we can elevate 
that as a very primary role in the delivery of health care.
    What's happened in the country is that we're used to now 1-
800 dial-a-number, or pull it up on the web, and if you dial 
the 1-800 number, you have to wait or you push another number 
and eventually you find someone to talk to you about your 
health care problem. Or you go to the web or WebMD or whatever 
it is out there.
    But American people are still begging to be taken care of 
and to have someone that cares. And the nursing profession and 
the professionals in delivery of health care, still are a 
good--and I'm not an expert--but 80 percent of health care is 
how you're treated. And I'll tell you, we need to elevate the 
position of nurses, find a way to make sure that they receive, 
one, the funding and the training and the pay that they 
deserve, because they play such a major--you all that are here, 
the professionals, play such a major role in health care. We 
want to make sure we continue with the best in the world, and 
we certainly all want to make sure if we're ill, or a friend or 
a relative is ill, that they receive the absolute best care.
    So today is really about a lot of things, and I've learned 
from working with Marilyn and spending some time on this issue 
the last at least three full years that a key link in health 
care delivery is finding and encouraging professionals that 
would like to help teach and train.
    We want to make sure that we're doing everything we can 
from the Federal level, and I know Marilyn and I would agree, 
all politics are local. We don't want to get in the way, as the 
Federal Government, and the Federal Government should be 
providing opportunities, providing incentives, but we want to 
make sure that the State of Colorado and the private sector and 
the professionals here are given the tools by the Federal 
Government to do what they need to do.
    When I was elected, and I know when Marilyn was elected, we 
weren't elected to be the superintendent of schools or the 
president of a school, we were elected to provide support from 
the Federal level.
    So today, I'm honored to be here, I'm excited, this is a 
passion for me, and I want to make sure that I can learn as 
much as I can from all of you and take it and share it with my 
community in Nevada. We're having a similar hearing in Nevada 
on Friday with Nevada State College, and I hope to again take 
some things that I've learned today and share with our folks in 
Nevada.
    So, again, thank you very much to the school and to all of 
those who are here today. I'm honored, and look forward to your 
testimonies.
    [The prepared statement of Mr. Porter follows:]

Statement of Hon. Jon C. Porter, a Representative in Congress from the 
                            State of Nevada

    Good morning. Thank you all for joining us for this hearing to 
examine the causes and possible solutions to address the shortage of 
qualified nursing faculty at our nation's institutions of higher 
education. I'm pleased to welcome all of our witnesses here today. I 
appreciate you taking time out of your busy schedules to appear before 
the Subcommittee. I am also glad that those of you in the audience were 
able to attend.
    As many of you know, according to the American Association of State 
Colleges and Universities, by 2020 experts believe there will be a 
national shortage of more than 800,000 registered nurses. The National 
League of Nursing estimates that more than 125,000 qualified applicants 
were rejected by nursing programs in the 2003-2004 academic year. The 
shortage of nursing faculty is one of several factors that are most 
commonly cited as reasons behind this trend.
    This problem is even more severe in the state of Nevada, where I am 
from, than in some other states. In fact, according to the U.S. 
Department of Health and Human Services' National Center for Health 
Workforce Analysis, Nevada's projected shortage of nurses will increase 
from 11% in 2000 to 27.5% in 2020.
    While I am troubled by the magnitude of this problem, and its 
impact on our nation I am also hopeful that the testimony we hear today 
will provide us with some additional insights as to what can be done to 
address the issue. I look forward to hearing more from our witnesses 
about the challenges our nation is facing and what is being done to 
find solutions.
    I believe that this national crisis must be confronted with 
coordinated efforts at the federal, state, and local levels. While the 
federal government must work harder to provide the resources to enhance 
the ability to train nurses, state and local governments, as well as 
private entities, will play a major role in reversing the declines in 
the nursing workforce. The national health implications of this dilemma 
are too serious, and the cost to patients too great to remain inactive. 
We must continue to look to build relationships and develop plans of 
action that will address these problems in a comprehensive manner. 
Through hearings like this, and the continued efforts of schools of 
nursing, we can educate Members of Congress as to how we can best 
overcome these issues.
    I'd also like to take this opportunity to thank Congresswoman 
Marilyn Musgrave for her interest in this issue, and her invitation to 
come to Greeley to discuss this issue further.--I look forward to 
working with her as we continue to examine what can be done at all 
levels of government to address the shortage of qualified nursing 
faculty.
    Again, thank you for joining us today to provide your valuable 
insight into this most important issue. I look forward to continuing 
our work to alleviate the pressures currently being placed on the 
nursing workforce.
                                 ______
                                 
    Mrs. Musgrave. Thank you, Jon, very much.
    Our first witness today is Ms. Sue Carparelli. She's the 
president and chief executive officer of the Colorado Center 
for Nursing Excellence in Denver. Ms. Carparelli has a 
background in both workforce development and health care, and 
is spearheading the only collaborative statewide initiative to 
improve access to quality health care through the development 
and support of Colorado's nursing workforce.
    She also works on a wide variety of educational issues, 
with a special emphasis on the nursing shortage. Thank you for 
being here, and we're looking forward to hearing from you.
    You know, when we're in Washington, D.C., we have a very 
prominent light that limits you to 5 minutes, but we're going 
to be merciful. We don't have the light, so we're just going to 
guess at it. Thank you very much.

STATEMENT OF SUE CARPARELLI, PRESIDENT AND CEO, COLORADO CENTER 
               FOR NURSING EXCELLENCE, DENVER, CO

    Ms. Carparelli. Thank you. Thank you. I will attempt to 
keep that light in my eyes nevertheless, and I want to thank 
you very much for being here. We are very grateful for your 
attention to what we think is a very important issue as well. 
As I look around this room, I'm also humble in my having the 
opportunity to speak to you, because there are many, many 
experts in this room who could provide a great deal of 
information on this issue for you. But let me see if I can't 
summarize some of the key issues from our perspective.
    First, the Center for Nursing Excellence is an independent, 
nonprofit organization. It was established in 2002 to be 
working as a convener, broker, facilitator of solution building 
in our state as we address nursing workforce issues. As such, 
we have the opportunity to work with many stakeholder groups 
across the state and have learned a great deal about what works 
and doesn't work in that process.
    The Center's funding comes from industry investment, it 
comes from state and Federal grants and foundation grants.
    First of all, let me just put some things in context for 
you as we then focus more specifically on the nursing faculty 
shortage.
    Health care in our state is a very important economic 
engine, and I think it would be critical that we keep that in 
focus as we consider the communities large and small, rural and 
urban, across our state.
    One in 10 Coloradans work in health care, and the health 
care sector is expected to create more jobs than any other 
industry sector in Colorado over the next decade, yet the 
efficiency of the engine is stymied by shortages. The 
Department of Labor in our state predicts that more than 7,300 
health care jobs will go unfilled each year for the next decade 
because there will not be enough workers prepared to meet that 
demand.
    Registered nurses in our state make up 25 percent of that 
health care work force, and you talked about the shortages in 
our state and the rate of growth that is projected by 2020 to 
be about a 31 percent shortage.
    This shortage in our state, as in other states, results 
from the interplay of both supply side and demand side factors. 
First, we are losing nurses faster than we can produce them. 
They are old. The average age of nurses----
    Mr. Porter. You'd better be careful.
    Ms. Carparelli.--in Colorado--I know, I know, but I'm--
we're going to talk honestly here. Average age in our state of 
Colorado nurses is 47 years old.
    Importantly, it is essential that you note that only 7 
percent of our nursing workforce is under 30. So the point in 
that is that we are missing essentially an entire generation of 
nurses.
    We also have a mismatch of diversity. The racial and ethnic 
make-up of our current nursing workforce does not reflect the 
increasing diversity of the state. Only 7.6 percent of Colorado 
nurses are nonwhite. Of that, 3 percent are Hispanic, while we 
are a state that has about 16 percent of our population of 
Hispanic descent.
    You have referenced the fact that nurses are predominantly 
women. In our state, that is 95 percent. We have not seen men 
enter this profession at the same rate as we have seen women 
leave it.
    Against this backdrop, we face an aging population whose 
health care needs will only increase in the years to come, 
placing more stress on an already overburdened system.
    As you referenced, our state is one that is growing. By 
2020, Colorado's total population is expected to grow by 16 
percent with 113 percent growth in our population of persons 
age 65 and over. That becomes a critical factor in considering 
demand for health care.
    Our efforts to increase the supply of registered nurses to 
meet this demand are greatly complicated by an education system 
that struggles to produce enough graduates to replace our 
diminishing and aging work force.
    While we enjoy a large supply of willing students, and 
you've noted both nationally and our state, that we are not 
able to respond to the number of people who are interested in 
entering this profession because of a variety of factors.
    The No. 1 reason for this trend in our ability to absorb 
those who are interested in entering this profession has to do 
with the insufficient numbers of qualified faculty to meet the 
demand of prospective students.
    In our state, as in other areas, the faculty shortage is 
most acute among clinical faculty, and those are the nursing 
educators who oversee students' hands on learning experiences 
at the bedside, which is a very essential component of nursing 
education.
    My colleague, Lynn Dierker, will tell you more about the 
reasons and implications and some of the specific solutions in 
terms of Colorado's nursing faculty shortage based on a study 
that was recently completed by the Colorado Health Institute. 
But let me make some additional observations in relation to the 
findings that you'll hear from her.
    First, in our state, we have at this point, I think, an 
unprecedented level of collaboration amongst our schools of 
nursing and amongst the faculty and leaders within those 
schools. This is affording us an opportunity to learn from one 
another, to look at best practices, and to share those ideas 
which work best.
    An information clearing house, on a national basis for best 
practices on nursing education and faculty development, is also 
crucial. And models such as that outlined by the University of 
Northern Colorado's proposal for the National Center for 
Nursing Education, offering coordination and technical 
assistance, resources, and professional development for nursing 
educators, is an excellent way to continue this work on a 
national level.
    Second, we can address the shortage of clinical leaning 
opportunities, in part, by taking advantage of emerging 
technologies, new opportunities and methods for learning. 
Colorado is poised to become a national leader in the effective 
use of those technologies, and we are grateful for the 
leadership that has been provided by the Colorado Department of 
Labor, which led to funding of a new collaborative simulation 
center, which will be on the Fitzsimons Campus; that project 
being funded by the U.S. Department of Labor.
    The Colorado Center for Nursing Excellence has been charged 
to operate this new resource, which will make the state-of-the-
art patient simulation resources available to students and 
faculty from around the state--in particular, to help develop 
the capacity of faculty to use these new technologies.
    And third, we have found that clinical practitioners, those 
clinical experts practicing within the health care delivery 
system, are willing partner in education when we provide them 
preparation and support to perform the clinical instructor 
role.
    We have been benefited in our state by a grant through the 
Colorado Department of Labor, which has allowed us to develop 
and proliferate what's referred to as a clinical scholar model. 
This trains practicing nurses to become clinical scholars, 
overseeing the rotations at practice sites, and the response to 
this particular program has been extremely gratifying. We have 
filled out grant-funded slots and nurses continue to be 
interested in these roles and we are seeing industry--in other 
words, the employers, particular in the acute care setting, 
support the cost of their participation.
    We are looking next at creating a statewide inventory of 
both supply and demand of clinical sites. This is another 
element that's contributing to our inability to support student 
learning. And what we believe is that we have the opportunity 
to create a technology platform that will support, then, that 
information enabling us to have a better sense and more 
efficient use of what is also a scarce resource in terms of 
clinical sites.
    These examples and others, which will be noted by Elise 
Lowe-Vaughn from the Department of Labor, illustrate the role 
of state and Federal agencies in addressing Colorado's and the 
nation's nursing faculty shortage.
    While the Colorado Center for Nursing Excellence is 
fortunate to have strong support from Colorado's hospital and 
foundation community, ongoing Federal support and investment in 
efforts such as ours across the country, is essential.
    Agencies, such as the U.S. Department of Labor and the 
Department of Health and Human Services, play an integral role 
in solving our nursing labor shortage.
    In closing, I wish to draw the community's attention to one 
inescapable fact: Health care workers are knowledge workers. 
While many of those currently employed within the health care 
sector are prepared through on-the-job training programs, 
generally funded by employers, nursing requires highly 
specialized and costly education and lifelong learning 
opportunities which are accessible only through our colleges 
and universities.
    In order to prepare these essential health care workers, we 
must have a viable, accessible, educational system that is 
responsive to the evolving needs of current health care 
practice.
    And I welcome any questions that you have, and thank you 
for this opportunity.
    Mrs. Musgrave. That was very excellent testimony.
    [The prepared statement of Ms. Carparelli follows:]

   Statement of Sue Carparelli, President & CEO, Colorado Center for 
                     Nursing Excellence, Denver, CO

    Thank you, members of the Committee. My name is Sue Carparelli; I 
am president and chief executive officer of the Colorado Center for 
Nursing Excellence.
    The Center is an independent, nonprofit organization established in 
2002. It is the only organization in Colorado exclusively dedicated to 
ensuring that our state has adequate numbers of highly-qualified 
nurses. We bring together educational institutions, health care 
providers, governmental agencies and foundations to investigate the 
sources of the nursing shortfall, to develop strategies to address it 
and to secure resources needed for effective solution building. The 
Center serves as a source of information and technical assistance, a 
broker and convener of collaborative partnerships and as a catalyst for 
innovation.
    Center funding comes from industry investments, grants from federal 
and state agencies, and foundation grants.
    My purpose today is to support my colleagues in illuminating the 
factors contributing to Colorado's shortage of qualified nursing 
faculty, and help them and members of this committee explore solutions 
to this crucial problem.
    I would like to begin my remarks by creating context around 
Colorado's nursing faculty shortage. I will provide some important 
facts about Colorado's healthcare workforce, and explain our state's 
nursing shortage. Then I will explore the impact of the shortage of 
nursing faculty on our ability to fill the nursing gap. I will furnish 
examples of efforts the Colorado Center for Nursing Excellence has 
underway to alleviate the faculty shortage, and offer recommendations 
to the Committee as you consider the federal government's role in 
addressing this nationwide problem.
    Healthcare is an economic engine in Colorado. One in 10 Coloradans 
work in healthcare, and the healthcare sector is expected to create 
more jobs than any other industry sector in Colorado over the next 
decade.
    Yet, the efficiency of that engine is stymied by shortages. The 
Colorado Department of Labor predicts that more than 7300 healthcare 
jobs will go unfilled each year for the next decade because there will 
not be enough workers prepared to meet the demand.
    The shortage is especially acute among registered nurses. Members 
of the committee are already, I am sure, well aware of the nationwide 
nursing shortage. Colorado's shortage is especially dire.
    While registered nurses currently make up 25 percent of all 
healthcare workers in our state, Colorado is estimated to have about 
5,000 fewer nurses than we need, or a 13 percent shortfall. That's 
about double the national average. And, that figure is expected to grow 
to 31 percent--or nearly 17,000 fewer nurses than needed in Colorado--
by 2020 if current trends continue. This shortfall results from the 
interplay of both supply side and demand side factors.
    First, we are losing nurses faster than we produce them. The 
average age of a Colorado hospital nurse is currently 47. Only 7 
percent are under age 30. A 2003 study found that 45 percent of 
Colorado nurses did not expect to be practicing in five years.
    Further, the racial and ethnic makeup of the current nursing 
workforce does not reflect the increasing diversity of the state. Only 
7.6 percent of Colorado nurses are non-white; 3 percent are Hispanic, 
in a state whose population is nearly 16 percent Hispanic.
    In addition, women have left nursing for other professions and few 
men have entered the profession to take their place. Today, 95 percent 
of Colorado nurses are female, while only 5 percent are male.
    Against this backdrop, we face--as do all other states--an aging 
population whose healthcare needs will only increase in the years to 
come, placing still more stress on an already overburdened system. Our 
population is also growing. By 2020, Colorado's total population is 
expected to grow 16 percent, with 113 percent growth among those age 65 
and older.
    Our efforts to increase the supply of registered nurses to meet 
this demand are greatly complicated by a higher education system that 
is failing to produce enough graduates to replace our diminishing, 
aging workforce. While we enjoy a large supply of willing students, our 
nursing education programs are severely constrained by a lack of 
qualified faculty.
    From a national perspective, it is important--and somewhat 
disheartening--to note that Colorado's nursing faculty shortage is 
typical, not unique. A study earlier this year by the American 
Association of Colleges of Nursing found that nursing schools around 
the country rejected 32,000 qualified students in 2004, despite a 14 
percent gain in enrollment from the previous year. In Colorado in 2003 
(the most recent year for which data are available), 2600 qualified 
applicants were turned away from nursing programs. The number one 
reason for this disturbing trend is that Colorado's nursing schools, as 
well as those elsewhere in the country, simply do not have sufficient 
numbers of faculty to meet the demand from prospective students.
    Our faculty shortage is most acute among clinical faculty, the 
professionals who oversee student nurses' hands-on experiences at the 
bedside. The bottleneck for clinical rotations means that nursing 
students wait longer for placements and have less time on rotations 
once they secure them. This essential element in nurse preparation, and 
one which is especially critical for developing the observation and 
treatment skills necessary to providing high quality care, is thus 
jeopardized.
    My colleague Lynn Dierker will tell you more about the reasons for, 
implications of, and specific solutions to Colorado's nursing faculty 
shortage, based on a recent study conducted by the Colorado Health 
Institute under the Center's auspices. I want to set the stage for her 
comments by making a few observations of my own.
    First, our nursing schools must have opportunities to learn from 
each others' successes and tap into the latest thinking on nurse 
education. An information clearinghouse for best practices on nursing 
education and faculty development is crucial. The model outlined in the 
University of Northern Colorado's proposal for the National Center for 
Nursing Education, offering coordination, technical assistance, 
resources and professional development for nursing educators, is an 
excellent way to fill this need.
    Second, we can address the shortage of clinical learning 
opportunities, in part, by taking advantage of emerging simulation 
technologies. In fact, Colorado is posed to become a national leader in 
the effective use of these technologies. The U.S. Department of Labor 
recently awarded funds to the Colorado Dept. of Labor and Employment to 
create the Work, Education and Lifelong Learning Simulation Center, 
known as the WELLS Center. The Colorado Center for Nursing Excellence 
is overseeing this important new resource, which will make state-of-the 
art patient simulation resources accessible to students and faculty 
from around the state through high-speed datacasting.
    Third, and perhaps most encouraging, we have found that clinical 
practitioners become more willing to oversee student rotations when the 
practitioners are trained in how to fill that role. Indeed, practicing 
nurses have signed up eagerly for a new training program provided by 
the Colorado Center for Nursing Excellence under a grant from the 
Colorado Department of Labor and Employment. This Faculty Development 
Project trains practicing nurses to become ``clinical scholars,'' 
overseeing student rotations at practice sites throughout Colorado. 
Response to the program has been so overwhelming that the grant-funded 
slots were filled long ago, yet nurses continue to sign up for the 
opportunity, with their institutions covering the cost of their 
participation.
    The Colorado Center for Nursing Excellence is also poised to 
develop a statewide inventory of both the supply and demand for 
clinical teaching sites, supported by a technology platform which will 
enable efficient matching based on tailored selection criteria. We are 
currently seeking funding for this initiative.
    These examples--and others that will be noted by my colleague Tom 
Looft from the Colorado Department of Labor--all illustrate the role of 
state and federal agencies in addressing Colorado's, and the nation's, 
nursing faculty shortage. While the Colorado Center for Nursing 
Excellence is fortunate to have strong support from Colorado's hospital 
and foundation community, ongoing federal support and investment is 
essential for our efforts--and similar programs around the country--to 
be successful. Agencies such as the U.S. Department of Labor and the 
Department of Health and Human Services play an integral role in 
solving our nursing labor shortage, providing the funds that fuel good 
ideas.
    In closing, I wish to draw the committee's attention to one 
inescapable fact. Healthcare workers are knowledge workers. While many 
of those currently employed within the healthcare sector are prepared 
through on the job training programs generally funded by employers, 
nursing requires highly specialized and costly education and training 
accessible only through our colleges and universities. In order to 
prepare these essential health care workers we must have a viable, 
accessible educational system that is responsive to the evolving needs 
of current health care practice.
    I welcome any questions from the committee. Thank you.
                                 ______
                                 
    Mrs. Musgrave. I think we'll hear from all of the witnesses 
and then we'll come back for questions.
    Ms. Carparelli. Thank you.
    Mrs. Musgrave. That was very good.
    Our next witness is Ms. Lynn Dierker. She's an R.N. Who 
currently serves as the deputy director for community 
initiatives at the Colorado Health Institute, and she holds a 
bachelor of science in nursing from Emory University, and a 
bachelor of arts from Drew University.
    As deputy director for community initiatives, she is 
responsible for building sustained partnerships for distancing 
nursing education between the institute and its diverse 
constituents throughout the state. Welcome.

    STATEMENT OF LYNN DIERKER, R.N., DIRECTOR FOR COMMUNITY 
       INITIATIVES, COLORADO HEALTH INSTITUTE, DENVER, CO

    Ms. Dierker. Thank you very much. I appreciate the 
opportunity to speak to you today.
    The Colorado Health Institute is an independent 501(C)(3) 
created by three foundations in Colorado to be an independent 
source of information, objective nonpartial information, for 
policymakers at both community and statewide levels.
    I'm here today to provide brief highlights from the 2004 
study that we completed related to the Colorado nursing 
workforce and the shortage of nursing faculty. And we completed 
this at the request of the Colorado Center for Nursing 
Excellent, and with funding by the Colorado State Workforce 
Council.
    A copy of the entire study is provided to you, and I think 
you have one with you there today----
    Mrs. Musgrave. Yes.
    Ms. Dierker.--and I recommend it as a rich resource of 
information. However, during the next few minutes, I hope to 
put into context the key findings from the study and discuss 
their implications, particularly as you consider how best to 
partner with states to promote nursing workforce development. 
As I make my few remarks here today, I don't know about you, 
but in listening to study findings, it's awfully difficult to 
hear data rattled off. So, what I've done is really refer you 
to the study for specific numbers and findings, and I'm going 
to try and this sort of the key concepts and implications of 
the findings in the study.
    The study was designed to identify and analyze key factors 
and issues affecting the supply of and demand for nursing 
faculty; in particular, the relationship between nurse 
education programs and the market for nurses and the health 
care industry.
    The study focuses on four primary areas: Economic factors, 
noneconomic factors, education infrastructure, and the role 
played by the private sector. And the study included issues 
related to both licensed practical nursing and registered 
nursing education programs.
    The research we did took full advantage of what is 
available in the current nursing workforce literature, and we 
also collected primary data through two Web-based surveys; one 
of clinical sites that employ nurses and train them, and one of 
educational programs across our state. We also interviewed many 
key informants from both practice and education and used an 
advisory panel to advise us on our study design and 
methodology.
    So, as to our key findings, let me put these in the context 
of what you're already hearing about the national workforce 
shortage and faculty shortages, and what you've already heard 
today about Colorado's situation.
    Our current nurse faculty shortage is significantly greater 
than the national average, as you've heard. The national 
shortage of faculty being around 8.6 percent, our shortages 
range from 15 percent in our 4 year institutions to 25 percent 
among our 2 year programs, including, importantly, our 
community colleges.
    In the face of this nationwide shortage, Colorado struggles 
to compete with other states to attract faculty due to these 
economic and noneconomic factors, including compensation 
levels, workload demands, and budget constraints that 
disproportionately affect our state-supported higher education.
    With population growth, as you've heard, and increasing 
demand for nursing services, Colorado, like other states, has 
called upon its education system to produce greater numbers of 
nursing graduates. The study found that nursing education 
deployed significant and rapid program expansions over the past 
3 years. However, in a number of ways, these expansions 
exacerbated our faculty shortage and increased job 
dissatisfaction.
    Entry-level faculty salaries are low; less than $40,000 on 
average, and even less in rural areas, and especially related 
to available positions within clinical institutions offering 
greatly higher rates of pay.
    Workloads are heavy, especially for clinical instructors 
who most often work on an hourly contract basis without 
benefits.
    In this context, concerns, as you've mentioned, are growing 
about faculty attrition due to retirements which are projected 
to increase significantly due to the average age of Colorado 
faculty, 50, especially within the state's 4 year colleges and 
universities.
    Preparing adequate numbers of qualified faculty is another 
corollary issue. The study reveals a lack of incentives and 
opportunities for graduate level preparation for nurses 
interested in a teaching role. Anecdotally, we heard from many 
who report that nurses who are in clinical settings and 
interested in taking on faculty roles can't afford the time and 
the resources to go full time to an education program and to 
have access to graduate level preparation.
    The majority of the state's nursing programs in Colorado 
are publicly funded and are, therefore, caught up in the 
current fiscal crisis facing all of higher education in our 
state. The study found that the private sector, particularly 
those clinical facilities employing newly graduated nurses, in 
particular, hospitals and long-term care facilities, private 
sectors already spending millions of dollars per year to 
support nursing education.
    However, clinical facilities report that newly graduated 
nurses are often unprepared to assume the full responsibilities 
of independent practice and they, therefore, require continuing 
training and supports that range again to the tune of millions 
of dollars annually.
    In addition to providing examples of widespread stress and 
concern related to faculty shortages, our study informants 
provided a rich picture of the types of innovation that are 
beginning to take hold within nursing education. As Sue has 
mentioned, these include advances in technology to enhance 
teaching methods and collaborative relationships with clinical 
facilities to strengthen the level of preparedness of new 
graduates and improve faculty job satisfaction. The study found 
that Colorado's nursing programs and health care facilities are 
pursuing many of the promising strategies that we identified 
nationally and by other states.
    CHI was charged to provide timely information that would 
support stakeholder decisionmaking about opportunities and 
investments in programs and interventions. This study is a 
starting point. It's a snapshot in time, and highlights the 
need for more robust, well-defined, and reliable data 
monitoring efforts by which to understand the full picture of 
nursing workforce supply and demand over time.
    However, the findings make it clear that Colorado 
educators, clinical training sites, and policymakers face both 
substantial challenges and exciting opportunities related to 
strengthening not only the nursing workforce, but also the 
healthcare system as a whole.
    In conclusion, I want to offer observations regarding the 
important three-level partnership that exists between Federal, 
state, and local leaders and policymakers. At the community 
level, even in our rural areas, nursing educators and 
clinicians perceive the need for strategic alignment of goals 
and strategies to meet the healthcare challenges before us. 
Study informants note that many of the issues related to 
nursing workforce, and particularly faculty development, should 
be addressed by a policy framework and resources made available 
at the national level.
    At the same time, as a system in need of innovation, 
nursing education must rely on and have the support for 
creativity and the ability to be responsive at the local and 
state system level among institutions, and with leadership that 
nurse practice and education leaders provide.
    Collaboration, flexibility, funding, and strategic and 
sustained alignment of efforts are themes that emerge from this 
study, and are offered for your consideration.
    Again, I am grateful for the opportunity to present this 
very brief overview, and welcome any questions or comments you 
may have. Thank you.
    Mrs. Musgrave. Thank you. We'll have questions for you a 
little later, I'm sure.
    [The prepared statement of Ms. Dierker follows:]

  Statement of Lynn Dierker, R.N., Director for Community Institute, 
                 Colorado Health Institute, Denver, CO

    Thank you for the opportunity to speak to you today. My name is 
Lynn Dierker. I am Director for Community Initiatives with the Colorado 
Health Institute.
    The Colorado Health Institute is an independent 501(c)(3) created 
by three Colorado foundations to be an information resource for policy 
makers at both community and state levels. CHI's mission is to improve 
the health of Coloradans through informed decision making. To carry out 
this mission, CHI works to improve the availability of data, conduct 
policy research and analysis, and perhaps most importantly, facilitate 
the dissemination of information so that it is used most effectively to 
understand and address the pressing issues affecting our communities 
and our state. As an organization, CHI is distinct in its independence 
and ability to serve as a neutral convener, bringing together 
stakeholders with diverse perspectives to work collaboratively to 
collect, analyze, and discuss data and their implications for health 
improvement in our state.
    I am here to provide brief highlights from a 2004 study of 
Colorado's nursing workforce and the shortage of nursing faculty that 
CHI completed at the request of the Colorado Center for Nursing 
Excellence. A copy of the entire study is being provided to you as a 
resource. However, during the next few minutes I hope to put into 
context key findings from the study and discuss their implications, 
particularly as you consider how best to partner with states to promote 
nursing workforce development.
    The Colorado Nursing Faculty Supply and Demand Study (Study) was 
designed to identify and analyze key factors and issues affecting the 
supply of and demand for nursing faculty, including the relationship 
between nurse education programs and the market for professional nurses 
in Colorado. The Study focuses on four primary areas: 1) economic 
factors including the economic rewards of teaching; 2) non-economic 
factors such as faculty workload, work environment, opportunities for 
professional development, and faculty educational requirements; 3) the 
infrastructure of Colorado nurse education programs; and 4) the role 
played by the private sector. The Study examined issues related to both 
licensed practical nursing (LPN) and registered nursing (RN) 
educational programs.
    The research effort took full advantage of information available in 
the current nursing workforce literature, and also collected primary 
data from Colorado nursing programs and clinical training sites related 
to the recruitment and retention of nursing faculty. An advisory panel 
of experts informed the study design and methodology.
    I want to highlight key findings from the Study in the context of 
what you are learning about nursing workforce issues nationwide. 
Colorado's current nurse faculty shortage is significantly greater than 
the national average shortage of 8.6 %, with shortages ranging from 15% 
in our four year institutions, to 25% among two year institutions 
including community colleges.
    In the face of a nationwide shortage, Colorado struggles to compete 
with other states to attract faculty due to economic and non-economic 
factors including compensation levels, workload demands and budget 
constraints that disproportionately affect state-supported higher 
education.
    With population growth and increasing demand for nursing services, 
Colorado, like other states, has called upon its education system to 
produce greater numbers of nursing graduates. The Study found that 
nursing education deployed significant and rapid program expansions 
over the past three years in response to the workforce shortage. 
However, in a number of ways, these expansions exacerbated the faculty 
shortage and increased job dissatisfaction. Entry level faculty 
salaries are low, especially related to available positions within 
clinical institutions at higher rates of pay. Work loads are heavy 
especially for clinical instructors who most often work on a hourly 
contract basis without benefits. In this context, concerns are growing 
about faculty attrition due to retirements, which are projected to 
increase significantly due to the average age of Colorado faculty, 
especially within the state's four year colleges and universities. 
Preparing adequate numbers of qualified faculty is another corollary 
issue. The Study reveals a lack of incentives and opportunities for 
graduate level preparation for nurses interested in a teaching role.
    The majority of the state's nursing programs are publicly funded 
and are therefore caught up in the current fiscal crisis facing all of 
higher education in Colorado. The Study found that the private sector, 
particularly clinical facilities employing newly graduated nurses 
(hospitals and long term care facilities), is already spending millions 
of dollars per year to support nursing education. This support takes 
the form of subsidizing clinical faculty; providing clinical 
instruction; offering scholarships and tuition reimbursement; and 
expanding clinical rotations to meet the increased demand for clinical 
training sites. However, clinical facilities report that newly 
graduated nurses are often unprepared to assume the responsibilities of 
independent practice. Concerns over the quality of patient care require 
them to provide orientation programs to new graduates ranging from four 
weeks to greater than three months and costing in excess of $2 million 
dollars annually.
    In addition to providing examples of widespread stress and concern 
related to faculty shortages, Study informants provided a rich picture 
of the types of innovation beginning to take hold within nursing 
education. These include advances in technology to enhance teaching 
methods, and collaborative relationships with clinical facilities to 
strengthen the level of preparedness of new graduates and improve 
faculty job satisfaction. Nursing programs have begun to utilize 
technology to enhance existing teaching methods and the overall 
educational experience. Together with clinical training sites, 
educational programs are striving to develop sustainable collaborative 
approaches to strengthen the competencies of new nurse graduates. The 
challenges inherent in these innovative projects are how to 
successfully achieve technology transfer and ensure widespread adoption 
of those practices that yield the best results.
    The findings from this study point to the need for coordinated and 
strategic action. A solid foundation of public and private sector 
collaboration has been established. Reporting new levels of 
partnership, Colorado's nursing programs and health care facilities are 
pursuing many of the most promising strategies identified nationally 
and by other states, particularly related to cultivating an adequate 
supply of clinical faculty. Colorado-specific initiatives designed to 
support and strengthen faculty roles and resources are emerging.
    There are additional opportunities to further the use of non-
traditional and multidisciplinary approaches to faculty development 
such as streamlining graduate program requirements, use of 
interdisciplinary faculty teams, and expansion of regional 
institutional collaborations. Regulatory and institutional policies 
warrant further examination related to the continuum of educational 
opportunities for practicing nurses including opportunities to better 
utilize Colorado's pool of retired nurse educators.
    As Study informants note, nurse faculty issues are inexorably 
linked to the complex range of factors that contribute to the overall 
nursing workforce shortage. Other states offer approaches for 
recruiting and training nurse educators that Colorado should consider. 
State experiences suggest that it is necessary to dig below the surface 
to address fundamental components of a transformed 21st health care 
system that can deliver quality health care in a cost-effective manner. 
These key questions must be answered by each state, but also 
collectively. What are the numbers and qualifications of nurse 
educators that are needed? What array of nursing education programs is 
needed to yield the right mix of practicing nurses? What data is needed 
to inform these decisions?
    CHI was charged to provide timely information that would support 
stakeholder decision-making about opportunities and investments in 
programs and interventions. This study is a starting point for 
understanding both the contributing factors and potential solutions for 
Colorado's nurse faculty shortages. It is a snapshot in time and 
highlights the need for more robust, well-defined and reliable data 
monitoring efforts by which to understand the full picture of nursing 
workforce supply and demand over time and the factors associated with 
affecting noted trends. However, the findings make it clear that 
Colorado educators, clinical training sites and policy makers face both 
substantial challenges and exciting opportunities related to 
strengthening not only the nursing workforce, but also the health care 
system as a whole.
    In conclusion, I want to offer observations regarding the important 
three-way partnership that exists between federal, state and local 
leaders and policy makers. At the community level, even in rural areas, 
nursing educators and clinicians perceive the need for strategic 
alignment of goals and strategies to meet the health care challenges 
before us. Study informants note that many of the issues related to 
nursing workforce and particularly faculty development should be 
addressed by a policy framework and resources made available at the 
national level. At the same time, as a system in need of innovation, 
nursing education must rely on the creativity and responsiveness of 
local and state systems, institutions, and leaders. Collaboration, 
flexibility, funding, and strategic and sustained alignment of efforts 
are themes that emerged from this Study and are offered for your 
consideration.
    I welcome any questions or comments from the committee. Thank you!
                                 ______
                                 
    Mrs. Musgrave. Our next witness is Elise Lowe-Vaughn, and 
she's the operations director for the workforce programs and 
the Colorado Department of Labor and Employment. She has an 
undergraduate degree in humanities and has done graduate work 
in counseling. She also helped to develop a multilevel computer 
literacy curricula for the Electronic Colorado Learning Portal 
that targets the hardest to serve and adult education 
participants. Thank you for being here.

STATEMENT OF ELISE LOWE-VAUGHN, OPERATIONS DIRECTOR, WORKFORCE 
    DEVELOPMENT PROGRAMS, COLORADO DEPARTMENT OF LABOR AND 
                     EMPLOYMENT, DENVER, CO

    Ms. Lowe-Vaughn. Thank you, Members of the Committee. I'm 
honored to speak with you today about the nursing shortage and 
its impact on our economy and the variety of nursing and 
faculty initiatives funded by the Colorado Department of Labor 
and Employment and the Colorado State Workforce Development 
Council.
    Colorado's workforce system is a national leader because of 
its unique collaborative partnerships, its innovation, and its 
ability to embrace the emerging technologies to meet industries 
demands in critical workforce occupations.
    Worker shortages in healthcare occupations, particularly in 
nursing, have been the focus of Federal, state, and local 
initiatives the past several years.
    In Colorado, during the past 3 years, the Colorado 
Department of Labor and Employment and the State Workforce 
Development Council, have funded over $3 million in 
discretionary workforce investment act and Wagner-Peyser 
projects that are targeted at improving the supply of nurses 
and allied healthcare professionals and providing career 
ladders to support advancement opportunity, and also faculty 
development opportunities.
    Some examples of the projects that have been funded include 
scholarships to upgrade bachelors and graduate-level nurses, 
recruitment of minority and youth populations into the 
profession, development of assessment tools to support 
students' ability to succeed in nursing programs, remediation 
programs to mentor high-risk nursing students, expansion of 
clinical rotationsites, the creation of associates and 
bachelors degrees in rural areas, and the state community 
colleges' nursing program accreditation.
    Concurrently, the Department, acting as a neutral convener 
of industry leaders and educational institutions, held forums 
around the state to identify creative approaches to the nursing 
shortage so that we could positively effect the nursing supply 
pipeline.
    We solicited the Center for Nursing Excellence to develop 
the Colorado nursing faculty supply and demand study. The 
findings from the study, and the results of the various forums 
around the state, highlighted the need to take the statewide 
system building approach to nursing and faculty development.
    From these conversations, the idea for the Work, Education, 
and Life-long Learning Simulation Center was spawned and a 
grant was requested and funded from the U.S. Department of 
Labor. This technology-based public-private venture weaves 
together the insights learned from the past 3 years, and has 
helped us identify a 5-year multiphase course of action.
    The center will be located at the Fitzsimons Redevelopment 
Center, and the space was contributed in part from the 
University of Colorado Hospital and partially funded from the 
state. This center will probably be the most sophisticated 
clinical training facility in the country for nurses and for 
nursing faculty.
    In the first year, we have purchased over a million dollars 
of state-of-the-art equipment. The center will harness various 
technologies and employ a variety of procedure-specific 
simulations that meld virtual reality and computerized 
simulation, and transmit these via the airwaves using the 
public broadcast system's data casting. It is anticipated that 
this national demonstration will expand the depth and breadth 
of statewide healthcare training, and be a template for 
replication around the country.
    Partners in this grant included Department of Labor and 
Employment, the State Workforce Council, the University of 
Colorado Hospital, the Center for Nursing Excellence, Touch of 
Life, the Rocky Mountain Public Broadcast System, the 
University of Colorado Health Sciences Simulation Center, the 
Colorado Area Health Education Center, and all of the 
collaborations of the many healthcare industry leaders, as well 
as educational facilities around the state. And we have over 55 
partners involved in this, and it is a statewide grant.
    Deeply embedded in the state's holistic strategy for 
expanding and improving the number, the quality, and the 
quantity of nursing professionals is the nursing faculty 
development grant. We funded this grant with the Center for 
Nursing Excellence with a four-to-one match from our industry 
and educational partners. This initiative seeks to increase the 
number of clinical scholars, clinical instructors, classroom 
instructors, lecturers, and preceptors.
    Through this 2 year, million dollars project, subject 
matter experts have partnered to develop curricula and train 
clinical scholars and preceptors in the use of simulation 
technology to enhance skill-based competencies.
    The Department's workforce learning management system will 
be a repository for statewide and natural virtual mentor 
clearing house for faculty development support.
    The aforementioned approaches to this health care crisis 
are examples of what the state workforce development system has 
developed in response to President Bush's call for innovative 
workforce solutions, built and sustained through strategic 
partnerships.
    Critical to all of our efforts are the public-private 
collaborative partnerships, which all of us have been talking 
about. Though they present unprecedented challenges for 
government and its processes, these unique initiatives afford 
us the opportunity to confront the status quo and build for the 
future.
    Mrs. Musgrave. Thank you very much for your testimony.
    [The prepared statement of Ms. Lowe-Vaughn follows:]

    Statement of Elise Lowe-Vaughn, Operations Director, Workforce 
  Development Programs, Colorado Department of Labor and Employment, 
                               Denver, CO

    Thank you members of the Committee, I am honored to speak with you 
today. My name is Elise Lowe-Vaughn; I am the Operations Director for 
Workforce Programs at the Colorado Department of Labor and Employment
    Being competitive in today's global economy requires innovative 
workforce solutions. In 2003, the Miliken Institute ranked Colorado 
third in the nation for future technology growth. I am here today to 
speak to the variety of nursing and faculty initiatives funded by the 
Colorado Department of Labor and Employment (CDLE) and the Colorado 
State Workforce Development Council (CSWDC). These initiatives have 
been targeted to meet industry demands for critical workforce 
occupations and employ emerging technology-based solutions. Worker 
shortages in healthcare occupations, particularly in nursing, have been 
the focus of federal, state and local workforce initiatives the past 
few years.
    In Colorado, during the last three years, the CDLE and the CSWDC 
funded over three million dollars in Discretionary Workforce Investment 
Act (WIA) and Wagner-Peyser (WP) projects targeted at improving the 
supply of nurses and allied healthcare professionals, providing career 
ladders to support advancement opportunities, and faculty development 
opportunities. Funds were competitively awarded to regional workforce 
development programs that partnered with industry and education to 
develop locally driven solutions to their healthcare worker shortages. 
Grantees were required to have partners that brought non-federal in-
kind or matching funds. Grant funds were intended to seed initiatives 
that would directly affect change at the local, community level. 
Examples of projects funded include: Scholarships to upgrade two year, 
four year and graduate level Nurses; recruitment of minority 
populations and youth into healthcare professions; development of 
assessment tools geared to assess an individual's readiness to handle 
the rigors of nursing education programs; remediation programs to 
mentor high-risk nursing students; expansion of clinical rotation 
sites; creation of Associate and Bachelor degreed programs for nurses 
in rural areas of the state; and accreditation of the State's Community 
College Nursing Programs.
    Concurrently, the CDLE and the CSWDC, acting as neutral conveners 
of industry leaders and educational institutions, held healthcare 
forums around the State to identify creative approaches to the nursing 
shortage that could positively impact the nursing supply pipeline. The 
CSWDC also solicited the Center for Nursing Excellence (CNE) to develop 
the Colorado Nursing Faculty Supply and Demand Study. The findings from 
this study, and the results from the various forums and funded 
initiatives, highlighted the need to take a statewide system-building 
approach to nursing and faculty development rather than using 
individual initiatives that weren't able to be replicated on a grand 
scale or didn't have the momentum to ameliorate the healthcare worker 
shortages.
    Galvanized by the results of the statewide healthcare forums, the 
Nursing Faculty Supply and Demand Study, and the locally funded CDLE 
and CSWDC initiatives, many within the healthcare community, have come 
to see the value added by public/private alliances.
    These conversations spawned the idea for a grant request to the US 
Department of Labor (USDOL) to create the Work, Education and Lifelong 
Learning Simulation (WELLS) Center. This technology-based public/
private joint venture weaves together the insights learned over the 
past three years, and has helped us identify a five-year, multi-phased 
course of action. The WELLS Center will be located at the Fitzsimons 
Redevelopment Center in space contributed by the University of Colorado 
Hospital, and partially funded by CDLE and CSWDC. It took over eighteen 
months to conceive the design framework for the Center; and it will be 
one of the most sophisticated clinical training facilities in the 
country for nurses and nursing faculty.
    USDOL funded this national model in phases, with first-year funds 
targeted at purchasing a million dollars of state-of-the-art equipment. 
The Center will harness various technologies and employ a variety of 
procedure specific simulators that meld virtual reality and 
computerized simulation, and transmit this learning via the air waves 
using high-speed data-casting. Through the use of technology, students 
can build their clinical competencies without risk or harm to patients, 
and faculty can hone their teaching skills using cutting edge systems.
    The WELLS Center grant was submitted to USDOL by the CDLE and 
CSWDC, and represents a partnership on a grand scale among government, 
education, the public broadcast system, and industry competitors. 
Industry and non-federal partners contributed a two-to-one in-kind fund 
match for all federal funds invested into the grant. It is anticipated 
that this national demonstration will expand the depth and breadth of 
statewide healthcare training and be a template for replication around 
the country. This alignment of resources will afford all a benefit 
beyond their individual means. Partners in the grant included:
    Colorado Department of Labor and Employment
    Colorado State Workforce Development Council
    University of Colorado Hospital
    Center for Nursing Excellence
    Touch of Life
    Rocky Mountain Public Broadcasting System
    University of Colorado Health Sciences Simulation Center
    Colorado Area Health Education Centers
    In addition, investors and collaborators in the Nursing Faculty 
Development Initiative and Simulation Development Group that played key 
roles in this process included:
    Adams State College
    Banner Health
    Centura Health Systems
    Colorado Community College System
    Colorado Permanente Medical Group
    Columbine Health System
    Craig Hospital
    Denver Health Medical Center
    Emily Griffith Opportunity School
    Exempla Healthcare
    HealthONE
    Kaiser Permanente
    Mesa State College
    Metropolitan State College of Denver
    Platt College
    Poudre Valley Hospital
    Regis University-Loretto Heights Department of Nursing
    University of Colorado at Denver and Health Sciences Center
    University of Colorado, Colorado Springs
    Beth El College of Nursing and Health Sciences
    University of Northern Colorado
    T.H. Pickens Technical Center
    San Luis Valley Regional Medical Center
    St. Mary's Hospital
    We have learned that the nursing shortage is compounded by a 
deficit of clinical practitioners and faculty needed to train the 
additional number of nurse needed to meet the nation's healthcare 
needs. Deeply embedded in the State's holistic strategy for expanding 
and improving the number, the quality and the quantity of nursing 
professionals is the Nursing Faculty Development Grant. Funded by the 
CDLE, with a four-to-one in-kind match from our industry and 
educational partners, this initiative seeks to increase the number of 
clinical scholars, clinical instructors, classroom instructors/
lecturers, and preceptors. Through this two-year, million dollar 
project, subject matter experts have partnered to develop curricula and 
train clinical scholars and preceptors in the use of simulation 
technology to enhance skill-based competencies. Faculty orientation 
workshops for the use and application of simulation tools will be 
developed and held at the WELLS Center, and on-line coaching and skill- 
building workshops will be developed to support the use of various 
technologies to train educators and clinical staff. In addition, the 
Departments e-Colorado workforce learning management system portal will 
become the repository for a statewide and/or national virtual mentor 
clearinghouse for faculty development support.
    The aforementioned approaches to the healthcare crisis are examples 
the State Workforce Development System has developed in response to 
President Bush's call for innovative workforce solutions built and 
sustained through strategic partnerships. Critical to all our efforts 
are the public/ private collaborative partnerships. Though they present 
unprecedented challenges for government and its processes, these unique 
initiatives afford us the opportunity to confront the status quo and 
build for the future.
                                 ______
                                 
    Mrs. Musgrave. Our last witness is Ms. Kay Norton. I would 
just like to say, President Norton, I very much appreciate you 
coming to Washington, D.C., and I look forward to working with 
you on issues for the University. I know you have a number of 
things to deal with, but this one today is critically important 
for our quality of life. And with the growth in Colorado, it 
sounds very similar to the growth in Nevada, Jon, very similar. 
And demographics being what they are, and of course, in the 
fourth district of Colorado, I serve a vast rural area. 
Seventy-five percent of the population is up in Weld and 
Larimer Counties and Boulder County, but 75 percent of the land 
mass is out there in those remote rural areas, so some very 
unique challenges that we're facing here in Colorado.
    Ms. Norton has an undergraduate degree in English and a 
juris doctorate from the University of Denver, College of Law. 
She joined the University staff in 1998 as Vice-President for 
University Affairs, General Counsel, and Secretary to the Board 
of Trustees.
    During her tenure at UNC, she has created opportunities to 
enhance the public health training and service in Colorado. 
Through the Colorado School of Public Health for Rural, Native 
American, Hispanic and Inner-City Populations. We're looking 
forward to your testimony.

  STATEMENT OF KAY NORTON, PRESIDENT, UNIVERSITY OF NORTHERN 
                     COLORADO, GREELEY, CO

    Ms. Norton. Thank you very much, Congresswoman Musgrave. 
And it is a privilege to be here with you and with Mr. Porter, 
and I appreciate the opportunity.
    I was at a meeting this morning when I heard for the 
umteenth time a reference to a very popular book by Thomas 
Friedman called ``The World is Flat,'' which is about the fact 
that we are in a global economy, and that from the perspective 
of a higher education institution, we have to prepare our 
students for competition on a global basis. And the issue of 
the preparation of nurses and the shortage of nursing 
professionals is a worldwide issue. But we can no longer solve 
that by stealing from each other, or even by recruiting from 
the Philippines, which has certainly occurred in this country.
    So I'm pleased to be able to participate in talking with 
you today about some of the things that we are doing locally in 
Colorado, regionally in the western United States, and 
nationally to address this critical issue.
    Most of the statistics have already been mentioned, and 
there are also some contained in my written testimony, which 
you have in the record. I would note something that hasn't been 
mentioned that only 1 percent of the nursing professionals in 
the State of Colorado have a Ph.D., which is the entry degree 
required for full faculty status at a university. I appreciate 
very much Ms. Carparelli's remarks about the importance of 
higher education institution-based preparation of nursing 
professionals as we go forward, although the clinical piece is 
vitally important. On-the-job-training is not enough to really 
advance the profession and its role in our health care system 
in the United States.
    The University of Northern Colorado School of Nursing is a 
microcosm of the issue about faculty retirements. One-third of 
our doctorally prepared nursing faculty retired in 2004 and 
2005. And, in fact, our current codirector of our nursing 
program, we literally talked out of retirement to come back and 
provide that leadership for us because we knew where she lived. 
So, she could not escape completely.
    But it's an issue that we have already seen played out here 
on our campus. And it was mentioned that one of the major 
issues that universities and colleges and community colleges 
face is that the market has not served us well in terms of the 
salaries that we are able to pay to faculty. They aren't 
appropriate for the responsibility and the learning that's 
required, and we have an issue, as well, in terms of price 
sensitivity in terms of tuition that we should charge for a 
professional preparation program for nurses.
    Some programs, you can have differential tuition because 
the market will bear it. Let's say in a business program or 
particularly at the graduate level. But when you're talking 
about a public service profession like teaching or like 
nursing, it's a different question as to how much should you 
put on the student in order to bear the cost of paying faculty 
appropriately. It's something with which we've wrestled, and we 
need to take a good hard look at that in terms of what the role 
of state and the Federal Government might be in helping us to 
perhaps shape the market forces, to make the adjustments that 
are going to be necessary for us to compensate these 
professionals appropriately.
    I would like to talk to you a bit today about what the 
University of Northern Colorado has done to respond to the 
nursing faculty shortage. Most prominently, we started 2 years 
ago an on-line Ph.D. Program in nursing education. This is not 
the same sort of Ph.D. That one would acquire at the University 
of Colorado Health Sciences Center, for example, where a 
nursing Ph.D. Is in clinical practice areas and research, as 
opposed to education. The University of Northern Colorado, as 
many of you know, began as a teacher preparation institution, a 
normal school in 1889. It is still by law the center of our 
reason for being and our public mission is the preparation of 
education professionals, and particularly at the graduate 
level.
    The program, as I mentioned, was launched in 2004 and it's 
committed to increasing the number of doctorally prepared nurse 
educators. Graduates of the Ph.D. Program are qualified, 
therefore, to fill nursing faculty positions in educational 
institutions and in health care agencies. It was mentioned, 
also, that the clinical settings in which nurses are employed 
also have a significant education and continuing education 
activity and role in our health care system. Therefore, the 
graduates of our program are prepared to meet those different 
types of needs.
    The program is delivered on line. We admitted 18 students 
in the `04-`05 ``cohort'' we call it, a group that goes through 
together. Another 18 were admitted in `05-`06.
    We're excited about those possibilities and are looking 
forward to the work that those students are going to be 
contributing to the research base her and nationally.
    We are also proposing that the University of Northern 
Colorado be the home for a national center for nursing 
education. We have a similar concept in place here at the 
University of Northern Colorado that--called the National 
Center for Low Incidence Disabilities, which addresses another 
critical need for the education of educators for the blind and 
the deaf. And that center, as the Center for Nursing Education 
would do, uses technology to research and develop best 
practices for providing that type of education and 
disseminating that information, again, using technology.
    Our proposal for the National Center for Nursing Education 
is in collaboration with the Colorado Center for Nursing 
Excellence, which has been mentioned a number of times. The 
National Council of State Boards of Nursing and other state 
college and university degree programs in nursing, and it has 
three purposes: To provide academic programs in nursing 
education, master's and post-master's certificates, Ph.D. 
Through course offerings on campus, on line, and at outreach 
sites. Potential outreach sites include locations in the 
northern, the southern, and the western slope regions of this 
state, especially in rural and underserved areas that have 
community colleges that operate associate degree programs in 
nursing.
    Our community colleges and 4 year schools in these areas 
have attempted to expand their nursing programs, but have the 
problems that have been described in terms of qualified faculty 
to staff those programs.
    Second, the center would provide professional development 
opportunities for nurse educators who are in place through 
summer institutes, teleconferences, webcasts, and on-line 
educational programs.
    And last, we want to establish a national nursing education 
resource center. Ms. Carparelli mentioned this. That would 
enable nursing faculty to access information and resources 
pertaining to contemporary issues and trends in nursing 
education through a centralized data base, and create a center 
for evidence-based nursing education; that is research into 
what works, that will provide faculty and graduate students 
opportunities to work together in advancing and addressing the 
question of what should nursing education be. Not only what is 
it now and what are the current best practices, but how should 
it fit into the healthcare system as it's developing given that 
not only the demographics are changing, but the demands and the 
type of care and the role of the nurse in the continuum from 
physicians down through what used to be called orderlies, 
really needs to be addressed. And we are eager to participate 
and thinking very hard about, well, what should--not only what 
should a nurse be and how should he or she be prepared, but, 
you know, how do we accomplish that?
    The University has also been partners in developing a 
multistate consortium that's called NEXUS, N-E-X-U-S. It 
includes the University of Colorado, the University of Arizona, 
the University of Utah, and Oregon Health Sciences University 
to develop a mechanism for students to access Ph.D. Courses on 
line through a collaborative arrangement.
    This is really a sophisticated form of outsourcing, if you 
will. These courses exist. One of these institutions in the 
consortium will have the course material and the means for 
delivering it. It makes no sense to reinvent the wheel and have 
each state or institution do that work, so we're very excited 
about that.
    Our other efforts are listed in my written testimony, so I 
will stop here. I do notice, Congressman Porter, that Nevada--
there is no Nevada institution listed as a consortium in NEXUS, 
but perhaps there should be.
    Mr. Porter. I agree.
    Mrs. Musgrave. Thank you very much for your testimony.
    [The prepared statement of Ms. Norton follows:]

 Statement of Kay Norton, President, University of Northern Colorado, 
                              Greeley, CO

The Nursing Faculty Shortage
    By the year 2020 the U.S. Bureau of Labor (2003) projects that 
there will be a shortfall of 800,000 nurses. The shortage is more acute 
in rural areas as it is more difficult for rural health care providers 
to recruit qualified nursing staff; rural health care facilities take 
60% longer than urban facilities to fill nursing vacancies \1\; almost 
half of frontier nurses have the ADN as their highest degree compared 
to non-frontier nurses. Although enrollment in entry-level 
baccalaureate programs in nursing increased 10.6% in 2004 over the 
previous year, nursing colleges and universities denied 26,340 
qualified applications due primarily to a shortage of nurse educators 
(American Association of Colleges of Nursing, 2004).
---------------------------------------------------------------------------
    \1\ MacPhee, M and Scott, J. (2002) The role of social support 
networks for rural hospital nurses: Supporting and sustaining the rural 
nursing work force. Journal of Nursing Administration, 32(5):264-272.
---------------------------------------------------------------------------
    The Colorado Center for Nursing Excellence Report, ``The 2004 
Colorado Nursing Faculty Supply and Demand Study'' outlines a critical 
problem. While enrollment in nursing schools has increased in recent 
years, it is stalling now at a critical juncture, because there are not 
enough faculty to handle the workload. Colorado's shortage of qualified 
nursing faculty at its two year nursing schools is three times the 
national average, and nearly double the national average at its four 
year schools. Only 1% of nursing professionals in the state have a 
Ph.D.
    It is anticipated that the faculty shortage will worsen as the 
average age of nursing faculty is 53 with increasing numbers of faculty 
preparing to retire. It is estimated that between 200 to 300 doctorally 
prepared faculty are eligible for retirement from 2003 to 2012. The 
University of Northern Colorado's School of Nursing is a microcosm of 
this problem as one-third of the doctorally prepared nursing faculty at 
UNC retired in 2004 and 2005.
    The University of Northern Colorado is taking the lead in 
addressing the shortage of nurses and nursing educators. UNC prepares 
master's and doctoral nursing faculty through the delivery of an online 
Ph.D. program in Nursing Education, the creation of the National Center 
for Nursing Education, and the master's and baccalaureate degrees in 
nursing.
The University of Northern Colorado Online Ph.D. Program in Nursing 
        Education
    The primary mission of UNC's online Ph.D. in Nursing Education is 
to establish excellence in nursing education. The doctoral program 
prepares nurses to contribute to developing leadership in nursing 
education, the scholarship of teaching, and education based-research in 
the discipline. The program is committed to increasing the number of 
doctorally prepared nurse educators. Graduates of the PhD program are 
qualified to fill nursing faculty positions in educational institutions 
and health care agencies. The program is delivered online. We admitted 
18 students in our first year (04-05) and 18 students in our second 
year (05-06). The interest in and demand for the program has been 
overwhelming. Although the program is certainly designed to address the 
shortage of faculty in the state of Colorado, students from across the 
country compete for admission to this unique program. Each summer the 
students from UNC's PhD program come together at the National Nurse 
Educator Conference of the Rockies where they share the latest in 
educational research and ``best practice'' with nurse educators from 
around the country. Last summer, PhD students were presented with the 
opportunity to dialogue with Dr. Patricia Benner, nationally known 
nurse theorist and researcher. Furthermore UNC's PhD students have been 
participating in collaborative research efforts with the Colorado 
Center for Nursing Excellence to address nurse recruitment and 
retention issues in Colorado. The University of Northern Colorado's PhD 
program and the Colorado Center for Nursing Excellence will partner to 
conduct research to address future issues of importance to nursing 
education in Colorado.
    We have also been partners in a multi-state consortium, NEXUS, 
which includes University of Northern Colorado, University of Colorado, 
University of Arizona, University of Utah, and Oregon Health Sciences 
University to develop a mechanism for students to access PhD courses 
on-line through a collaborative arrangement.
The University of Northern Colorado's National Center for Nursing 
        Education
    The UNC School of Nursing, in partnership with the Colorado Center 
for Nursing Excellence, the National Council of State Boards of 
Nursing, and state associate degree, baccalaureate, and higher degree 
programs in nursing, is working to develop the National Center for 
Nursing Education. The Center will have the following three purposes: 
1) Provide academic programs in nursing education (master's, post-
master's certificate, and PhD) through course offerings on the main 
campus in Greeley, online, and at outreach sites. Potential outreach 
sites include locations in the northern, southern, and western-slope 
regions of the state, especially in rural and underserved areas having 
community colleges that operate associate degree programs in nursing. 
2) Provide professional development opportunities for nurse educators 
through summer institutes, teleconferences, webcasts, and online 
educational programs; and 3) Establish a National Nursing Education 
Resource Center that will a) enable nursing faculty to access 
information and resources pertaining to contemporary issues and trends 
in nursing education through a centralized database; and b) create a 
center for evidence-based nursing education that will provide faculty 
and graduate students in nursing education with opportunities for 
multidisciplinary, interdisciplinary, and multi-institutional research 
in nursing education.
            Other University of Northern Colorado Nursing Programs
Online Graduate Program in Nursing Education
    UNC's School of Nursing also offers a Graduate Certificate in 
Nursing Education program online to master's prepared nurses, 
matriculated master's nursing students, and matriculated doctoral 
students who wish to augment their professional studies with advanced 
coursework in nursing education and academic roles. We have 9 new 
admits in Fall 2005.
Online RN to BSN program
    Student demand for easier access to the Bachelor of Science in 
Nursing program, particularly in rural Colorado, led to the development 
of the RN to BSN online program in 1998. The RN to BSN program is 2 
year online program for individuals who have an Associates Degree in 
Nursing or a Diploma in nursing. The online RN to BSN program takes 4 
semesters to complete, clinical hours are arranged where students are 
living, and nurses are able to work full-time while completing the 
program. Students are admitted every Fall. The program has averaged 12 
students per cohort. We've received 30 applications for Fall 2005.
Second Degree Accelerated BSN program with local hospitals
    The second degree accelerated BSN program is designed to meet the 
needs of those students who are seeking a BSN as a second bachelor's 
degree. Admission to the accelerated second degree program is 
competitive. First priority is given to qualified candidates who are 
committed to living and working in the Northern Colorado area. All 
applicants are sponsored by and commit to work for a minimum of two 
years at Poudre Valley Health System or North Colorado Medical Center/
Banner Health upon graduation. This program is privately funded by 
these two facilities and each system provides financial support to 
their selected candidates and students complete their applicable 
clinical courses at the sponsoring facility. Students admitted to the 
second degree accelerated program will be able to complete the nursing 
courses in 20 months (vs. 26). The program has been in place since 2002 
and we admit approximately 18 students each year.
Summary
    The inception of UNC's PhD nursing program has been instrumental in 
laying the foundation for increasing the number of highly qualified 
nurse educators. Our participation in the NEXUS partnership reflects 
the recognition that UNC provides a unique resource in addressing the 
acute shortage of nurse educators in the region as well as the state. 
In keeping with UNC's education mission, we have taken the lead in 
addressing the shortage of doctorally prepared nursing educators and 
will be a national leader in nursing education with the creation of the 
National Center for Nursing Education.
                                 ______
                                 
    Mrs. Musgrave. It has been brought to my attention that the 
service workers' union are out in the foyer and I don't know if 
they can hear me, but I just want them to know that they can 
submit written material for the record and I'd be happy to 
include that in the record today. And if any of the witnesses 
here will include all of your written material, and if you have 
any other studies or anything that you would like to submit, 
we'd be happy to have those.
    We'll go ahead and start the questioning now. I think I'll 
start with you, Sue, if I may. And you talked about not very 
many men or minorities being attracted to the profession right 
now. I can imagine that it's a great advantage if a nurse has a 
second language also, and so there are many benefits for 
bringing men and minorities into the profession, and I'd just 
like to know strategies that you have for bringing more in.
    Ms. Carparelli. The statistics that I quoted to you 
reflect, I think the patterns, the historical patterns, which 
certainly, obviously, nursing has been a profession that has 
attracted many more women than men. What we know is that we are 
going a better job of recruiting both males and females into 
the profession, and our schools are becoming more diverse in 
their enrollment, both by gender as well as by ethnicity.
    We have observed some interesting trends in our state, and 
I would imagine that they would be consistent with other states 
as well. In relation to the attractiveness of the profession 
post 9/11, there were several things that happened in our 
country. We had tremendous job loss, and that job loss, in our 
state in particular, was experienced by those who were at high 
educational levels. They were knowledge workers. And the other 
phenomenon that I observed was that that experience post-9/11 
caused us to really reflect purpose and meaning of work and 
that folks who had previously been employed, for example, in 
the tech sector, which was very high growth, high paid 
positions in our state, but perhaps low personal fulfillment.
    People who were looking to retool for jobs that were never 
going to return to our economy looked at jobs that provided 
more personal fulfillment by virtue of service to others. And I 
think that that has been benefited us greatly in terms of the 
numbers of both men and women who have considered these career 
fields.
    I would say to you that we have very important work to do 
in our K through 12 educational process. If we do not do a good 
job of science and math, foundational skill building, people 
who may have aptitude and interest will not be able to be 
successful in what is a very rigorous academic program.
    And our state, as other states, is challenged by that 
reality and we find ourselves in our schools of nursing, at 
times, having to do remedial work in order to retain very 
capable students who come perhaps not with the essential 
foundational skills that are required, and we find that in 
particular within our community college programs.
    Elise spoke about some of the skill building programs that 
the Department of Labor has helped to fund and maintains in our 
state that are essential to that process.
    Mrs. Musgrave. How do you think that's being communicated 
to K-12 educators and administrators?
    Ms. Carparelli. I think that--I think that K through 12 
administrators and teachers do understand that these math and 
science skills are essential. I think that they don't 
necessarily connect all the dots in terms of relevancy to the 
array of career fields that those skills require as 
foundational. I certainly know that UNC, amongst other of our 
teacher preparation programs, are working to assist in that 
effort, and I know that our school districts across the state 
are looking at curriculum and teaching methodologies that will 
support student learning in that area.
    That said, it's a long path, and one that we must persist 
in, not just for these health care careers, but for the array 
of knowledge-based jobs and professions that now are the future 
of our economy.
    Mrs. Musgrave. I appreciate that. Having served on a local 
board of education, I wish that boards of education around the 
State of Colorado could hear these remarks today. And one of my 
goals as a board member was academic rigor. You know, we know 
that students have--they mature--the maturation levels are very 
difference, and I would like academic rigor in K-12 so that 
when they want to make a choice, they then can.
    And remedial efforts are very expensive and time consuming, 
and you know, we would hope that school boards around the 
Nation would hear these things, because you're talking about 
the world being flat, the book and the global economy and the 
academic rigor is so important, again, as you said, not only in 
this field, but for our students to be ready for that global 
economy out there. Thank you.
    Mr. Porter, do you have questions?
    Mr. Porter. My first question is about getting old.
    Mrs. Musgrave. I thought 47 sounded kind of young.
    Mr. Porter. Sue, I appreciate it. But having crossed that 
half century mark, I think I'm pretty young, but I guess I'm 
not.
    But thank you all for your testimony today. I actually have 
some questions, and you're all welcome to answer or if you 
choose not to, that's OK. But I'm trying to compile some data 
for my own decisionmaking.
    Maybe it's in the background, and I read your testimony 
prior to today, but also was looking and may have missed it. 
But how many professional instructors do we need? I know we're 
going to be short by almost 800,000-some health care 
professionals in the next 10, 15, 20 years, but what should our 
goal be for the professional in the classroom? What percentage 
should we be--what should be our goal?
    Ms. Dierker. I'll say while we need we need more, one of 
the things that the study showed is that really we don't have a 
very good baseline, we don't have really well-defined data 
elements and data collection, so that even among educators in 
programs, there's been so much rapid sort of change and 
dislocation and numbers and the use of technology and the 
change from old models of teaching to what we should do with 
new ways of teaching, using technology, that there are some 
fundamental questions that we need to really get to in terms of 
what should education look like to prepare the competent 
professional for the 21st century. What does that really look 
like? How do we take advantage of distance learning and all of 
these other things to sort of say there are numbers, there are 
ratios of how many we need?
    What we do recognize, and this is, again, I'm speaking on 
behalf of the informants who really brought it forward out of 
the study, is that we've really got to do some fundamental 
innovation in what nursing education looks like to go from the 
old sort of apprentice model to really a really solid 
professional knowledge worker who has real critical thinking 
skills that can be applied in diverse and increasingly 
challenging settings.
    And so I think that's where we really need to work with 
some of the leaders in education and practice to really get at 
your question, which is ``what does the model look like?'' and 
then how would we project and then collect data over some time 
and really do that in a concerted way with a research agenda 
that gives us some rapid but sound answers.
    Mr. Porter. What concerns me is we have state-of-the-art 
operating rooms now across the country, the latest in 
technology. But it seems to me that some of the training may 
still be from 50 years ago or 100 years ago, and I want to make 
sure we know what the goal is. And you say 800,000 
professionals, I think there's a weak link and that's something 
we need to work on is how we can come up with some form of 
delivery and consistency.
    Ms. Dierker. Well, and I will say in Colorado, and I'm sure 
this is happening in Nevada, but in states, as everyone's 
grappling with this, we have some remarkable demonstration 
projects underway, as you've heard. And I think we need to be 
listening and talking and learning from them on an ongoing, 
constant, basis to get at your issue of ``what's the model?'' 
and ``what should we be striving for?'' because those are the 
laboratories where people are trying to figure it out, and use 
these technologies and examples from other industries, 
actually, like the airline industry, where they realize that 
you get precision and safety when you use simulation and you 
use certain teaching methods so that pilots don't make 
mistakes.
    And so we have some ways to learn about that. And like I 
say, in our study, it showed that even in rural areas and--as 
soon as people are introduced to these technologies and these 
new teaching methods, there is a hunger for them. We just need 
to--people want the support and the help to design curriculum 
and have resources to connect all the dots and have the 
programmatic sort of institutionalized ways to go at it.
    Mr. Porter. And by the way, and I appreciate the study, I'm 
sure we could just cross out Colorado and put Nevada and it 
would be almost identical, so I look forward to using this as a 
resource, too. Thank you.
    Anyone else want to comment?
    Ms. Norton. I might just give you an estimate. If we made 
no changed in how we educate nurses, and I certainly think we 
do need to, everything that Lynn has just described, needs to 
happen. But we do know that 200-300 doctorally prepared faculty 
will be eligible to retire nationally from 2003 to 2012, and so 
if we were going to replace them and expand capacity, we'd be 
looking at needing Ph.D.s in the 100's or low thousands would 
be a very rough estimate. The number is probably higher than 
lower----
    Mr. Porter. Excuse me, so what you're saying is that the 
status quo----
    Ms. Norton. Right.
    Mr. Porter.--we're going to lose 300.
    Ms. Norton. Right.
    Mr. Porter. And even with status quo, it's really not 
enough.
    Ms. Norton. And that--and status quo hasn't allowed us to 
expand programs to meet the need for the 800,000----
    Mr. Porter. Because we're already short 800,000----
    Ms. Norton. Correct.
    Mr. Porter.--or whatever it is.
    Ms. Norton. Correct.
    Mr. Porter. So you think in the thousands.
    Ms. Norton. Yeah, in the low thousands, right. Four 
figures.
    Mr. Porter. Thank you. And I know it was mentioned earlier 
about the book, ``The World is Flat,'' and I'd like to 
reference--if I could write a book, and I'm not a very good 
writer, it would be about the world as we know it, even here 
inside of the boundaries of the U.S. I have found that, when it 
comes to education, whether it be higher education, health care 
profession, or even primary and secondary, we have created 
these paradigms and these little worlds and each one has their 
own thing. You've got the school district doing their own 
thing, you've got the universities doing their own thing, 
you've got local governments doing their own thing, you've got 
private sector doing their own thing. And the world really is 
flat right here in Colorado and Nevada and Iowa where I grew 
up. We have everyone in their little worlds, and I think it's 
time that, as mentioned in the collaborative effort, I think it 
was mentioned here numerous times, that it's the responsibility 
for health care for local government also. It's a 
responsibility for the legislature. Of course, they know that 
they have a role. But we have created little worlds and little 
boxes and we're not crossing over, and I think that we need to 
do a cultural change ourselves as policymakers and leaders that 
health care is as important to the local government as it is to 
the University of Northern Colorado or CU, which we were 
talking about earlier. I hear a lot about CU from my chief of 
staff, but I am very concerned that we also have this paradigm 
when it comes to retired professionals.
    I know Nevada is fastest growing in retirees. Well, there's 
a wealth of talent in our retiree health care professionals, 
and as I mention that, I guess I'd like to know, is there a 
program in place to help bring those retirees back into 
educational processes and use them in a clinical setting to 
help train nurses? Is there something in place in Colorado for 
the retirees?
    Ms. Carparelli. OK, since I'm the one that raised the age 
issues, I'll tackle that one. And let me just respond to that 
first by saying that age is important in these very physically 
demanding jobs. That we know that, for example, in an acute 
care environment, that the physical rigor of being a staff 
nurse, a direct care provider, makes it difficult for people to 
perform in that role much past mid-50's because of the demands 
of that job. And so,----
    Mr. Porter. If I may interrupt, what would the average 
tenure be, then, of someone to retire in their mid-50's? How 
long would they have been in the profession? Is that 30 years, 
20 years, 10 years.
    Ms. Carparelli. Well, it would obviously depend when they 
entered into the profession, and we have many nurses who began 
their educational process right out of high school and have 
been practicing in that profession since that time.
    Increasingly, as you look at the age of our students 
currently enrolled, we are seeing a much older student 
population, particularly in our community colleges and our 
accelerated nursing programs. We are seeing people retooling, 
as I spoke about before, from other professions to prepare for 
a new career path within nursing. And so they are in their late 
20's to early 30's as they are starting this profession.
    Mr. Porter. Is it as much age as it is the length of time 
in the profession? Is there just a burnout happening after so 
many years or is it a combination of age and just worn out from 
the profession.
    Ms. Carparelli. I think there are a variety of factors. I 
think that the work environment has many elements that create 
burnout and dissatisfaction for those who work within that 
environment. I think that the increased level of acuity within 
our--patient acuity within the acute care environment means 
that people are sicker and they stay a very short period of 
time, and so it makes for a very intense work experience with 
little time for the satisfiers that those within this 
profession are looking for in terms of a relationship with that 
patient.
    I think that there are also substantial cost pressures that 
providers struggle with that create productivity pressures upon 
individual care providers that in turn create dissatisfaction 
on the part of those that are in direct care delivery modes.
    I think that there are a whole host of issues that need to 
be addressed in effort to retain health care providers, nurses, 
amongst them.
    We do know that we have to make some modifications in the 
process of work, and we have a variety of initiatives that 
reflect that. If you've not heard about efforts, particularly 
on the part of acute care environments to create magnate 
status, which is an element that focuses on the work 
environment for the professional practice of nursing, and we 
don't have necessarily time to get into that, but it is an 
example of efforts being undertaken to substantially modify and 
make more satisfying and more rewarding the professional 
practice of nursing within the care delivery system.
    That said, as is the case with K through 12 education, we 
have a great deal of work to be done in that regard, and it is 
essential that nurses, as participants in that process, have 
substantial input and say as to how that works for them. Their 
voice in this process is essential.
    There is opportunity for us with the aging; particularly of 
the clinical experts to be able to bring them into teaching 
roles. What we know is that it is imperative that those----
    Mr. Porter. Excuse me, when you say--so I understand--
"clinical expert'' is someone that has field training is now in 
the training position? Is that the term you use for teachers.
    Ms. Carparelli. A clinical expert is someone who has 
clinical expertise--current knowledge and practice within a 
particular area of practice. As an example,----
    Mr. Porter. And those are more apt to be the--those 
individuals would be the instructors.
    Ms. Carparelli. Those are the people, for example, who may 
have 20 years of experience in labor and delivery, 30 years of 
experience in labor delivery, and either are looking for a 
means to augment their practice by adding a teaching component 
to that, or are looking for a way to move into a next stage of 
a professional career.
    My point is that what we are finding is that these people 
whose job it is to provide care, and who are experts in the 
delivery of certain kinds of care, are able and willing to 
participate as clinical instructors, teaching students those 
clinical skills in partnership with their educational 
institutions when supported through some basic orientation, 
training, mentoring, and coaching around how to teach.
    Now, that said, they will not nor should they ever 
substitute for the kind of folks that President Norton is 
speaking about as it relates to faculty, but they can augment 
and support the learning and bring to the student experience 
great expertise and experience in certain kinds of clinical 
areas.
    So it's an example of the kind of collaboration between 
practice and education that can happen and must happen to 
create the kind of quality learning experiences that students 
need.
    Mr. Porter. I have more questions, but I'll wait if that's 
OK.
    Mrs. Musgrave. OK, I'll bring some forth. Could you comment 
on technology, whichever one wants to, particularly simulation? 
I don't know who wants to take that.
    Ms. Dierker. Certainly in the study, we asked our 
informants to what degree they were already starting to and 
were interested in using technology so that I can comment to 
some degree on what came out of the study and some of what I 
know otherwise just by way of background.
    But the kinds of technologies that are really emerging now 
include some of the things that President Norton mentioned, 
which are ways of education that rely on on-line curriculum and 
sort of didactic methods. But in the clinical setting, there 
are simulation technologies that are partially self-directed 
on-line methods, but also involve literally mannequins and 
lifelike--very life-like mannequins who can provide a kind of 
experience much like, again, to use the airline example, of 
being in a cockpit where you really have a patient and you can 
simulate situations of physical crisis, birth, certain kinds of 
physical--physiologic states, and students and teams of 
students can literally practice taking care of a patient in 
that environment.
    And so that what you have, then, is a way for an 
instructor--for people to not only watch and observe, like the 
old days when I went to nursing school, and you might crowd 
around a bed and get to actually see someone in a certain 
state. And this way, with simulation, you really have students 
who can go through the entire continuum of how you'd care for 
that patient, have instruction, repeat it, practice it, and get 
it right.
    And so these are the kinds of technologies that both 
hospitals and schools are putting into place and that they are 
referring to when they talk about trying to rely on technology.
    What the study found is that while you can buy a mannequin 
and you can put it there and say, ``OK, here we have it,'' 
there's a lot--there's a big gap between that and having 
faculty who know how to teach using it and really know how to 
integrate a student who has come in with computer-based 
background and the simulation technology and integrate all of 
that into a valuable learning experience. And that's where 
faculty needs support.
    Mrs. Musgrave. That's what I was really hoping to 
understand. You know, I see how it could very much improve the 
quality of the education, but what I don't understand is how it 
really addresses the shortage of faculty, you know. I know that 
instructors can use that, but you still have to have the 
instructors, I would imagine, the teachers there. So, I don't 
know if you want to comment further on that or not.
    Ms. Carparelli. I'd like to comment on that. Your point is 
exactly right on. The use of these emerging technologies does 
not take the place of the instructor nor does it take the place 
of learning that takes place in the clinical environment. But 
what it can do is to augment the student learning or to 
rehearse, essentially, things that the student will see in the 
clinical environment in preparation for that clinical 
experience.
    And I think the important point is that faculty need time 
and support to be able to, themselves, learn how to use these 
emerging technologies effectively and they need time to conduct 
the research to determine efficacy relative to learning and 
outcomes.
    And, again, it's part of what President Norton referred to 
in terms of evidence-based education. We need to learn how to 
use this stuff effectively, and we're in many instances at the 
front end in the use of this technology and the faculty experts 
haven't yet had the opportunity to test it and evaluate it and 
research it in the ways that we have more historically teaching 
methodology.
    So that becomes a very important aspect of what needs to 
happen as it relates to education.
    Ms. Norton. If I may add, four of doctoral students in our 
nursing education Ph.D. Program are focusing on the use of 
simulation technology and nursing education right now.
    Ms. Dierker. And I just wanted to, again, make a point 
about, I think your issue about how does this really contribute 
to supply and where we're going to get it. I think one of the 
things that we revealed, which was pretty stunning in our 
study, when we asked representatives from the hospitals and 
long-term care facilities, you know, ``how much money are you 
really spending on nursing education?'' And we got a large 
number. I mean, when you think of $2 million in a year from the 
people we surveyed who, you know, they range, of course, some 
of the big systems with the larger numbers, but still, that's a 
lot where they're literally putting up money to backfill, to 
support the need for further education and strengthening of 
those students.
    So to your question, Mr. Porter, about how many do we need, 
when and where? We've got to incorporate these sort of methods 
to sort of answer that question, because out there in the 
practicing world, you have these hospital systems that have a 
large component of their budget going to staff that need to 
cover their new grads just because they can't practice 
independently, full practice yet, and need to train students.
    And so how many of them do we need, how many could we free 
up? How much do we take a financial burden off of the industry? 
That, of course, cycles back into costs and cycles around to 
what we all pay.
    So, I mean, they're all interrelated, which is why we're 
got to figure an efficiency equation about how we can best 
educated people.
    Mrs. Musgrave. I was interested, President Norton, when you 
talked about the difference between 2 year schools and 4 year 
schools and the shortage of faculty. Could you address that, 
please.
    Ms. Norton. Yes. Well, there are different levels of 
preparation of nursing professionals because a nurse is not 
necessarily a nurse is a nurse. You have the traditional 
licensure frame of references, LPN, more like a 2-year program; 
BSN--RN, more like a bachelor's program, although they're not 
the same thing. This is all something that I had to learn a lot 
about as we addressed the issue here at the University.
    And the 2 year programs produce an AND nurse, who is 
certainly fully prepared to do many functions in an acute care 
facility and in long-term care facilities, but would not 
necessarily be prepared, for example, to do work in the 
surgical units or other more sophisticated areas.
    And so as we look at need, we have to look at what sort of 
nurse do we need where and how many and at what level can we 
adequately prepare those students. So the answer is not simply 
to say, ``Well, let's just have everybody do a 2-year 
program,'' because that won't necessarily be the right level of 
preparation for where the need is.
    So it's another mismatch in this rather complicated picture 
that we have to take a look at. And if I may, I'd like to just 
mention in terms of the issue about technology and how does it 
help. Our experience in higher education has been that 
technology tends not to save money so much as it enables us to 
increase quality and, very importantly, increase access and the 
dissemination of information. But it adds sophistication and it 
can contribute to quality and it can certainly cost a lot of 
money, but it doesn't necessarily eliminate the need for human 
beings and those knowledge workers.
    Mrs. Musgrave. Mr. Porter.
    Mr. Porter. You're going to be sorry you invited me today, 
but I'm----
    Mrs. Musgrave. Good thing we don't have the light.
    Mr. Porter. It's probably a good thing. I would be in 
trouble. In my approach to public services, I am not an expert; 
you're the expert, so I try to learn as much as I can from you. 
I'd rather hear from you than you hear from me.
    But there is a few things. Average tenure; what is it for a 
professional? How long do they stay in the profession? Is it--I 
know we started to go down that path; is it 10 years, 20 years, 
15? I know there's lots of variables, but how long would they 
stay?
    Ms. Carparelli. Are you talking about practicing?
    Mr. Porter. Practicing.
    Ms. Carparelli. Practicing nurses, I think it's extremely 
variable, and I think that we can learn a lot by looking at 
that variability. We have a high rate of attrition from the 
profession in the first three to 5 years out of school. And 
that has to do, again, with a variety of factors, but it's an 
important consideration because we do not get the full benefit 
of all of those that we educated.
    Mr. Porter. As part of that, leaving a family or relocation 
or spouse's relocation, or some of those things.
    Ms. Carparelli. As I said, there are a variety of factors. 
Some leave because it wasn't what they expected----
    Mr. Porter. Absolutely.
    Ms. Carparelli.--and they do not find it be a satisfying 
work environment, they don't find----
    Mr. Porter. But is it higher in nursing than in other 
industries.
    Ms. Carparelli. I would not feel qualified to fully answer 
that question. I think it would be important to, you know, 
perhaps think about who you wanted to compare that to.
    Mr. Porter. Yeah.
    Ms. Carparelli. I think----
    Mr. Porter. So we don't--and I hate to interrupt, because I 
know we're running a little low on time, but so right now we'd 
say we really don't know an average tenure, right? Is that what 
I'm hearing? That's something we'd probably need to find out.
    Employer. Who is the largest employer? Is it the hospitals?
    Ms. Carparelli. Yes.
    Mr. Porter. That's the largest. And I'll be honest with 
you, I don't have a lot of sympathy for the private sector when 
it comes to training. I think they share a huge responsibility. 
I don't think this is just a public sector responsibility to 
train and to recruit and encourage health care professionals. I 
think industry should be the leader in helping find not only 
the nurses, but the clinical instructor. They should play a 
bigger role in all of this, so I don't have a lot of sympathy 
in that they've made an investment. That's their responsibility 
also, because the Federal Government, the state and local 
governments, even though health care is a quality of life 
issue, I think the hospitals need to do more, and I've heard 
even the hospitals in Nevada talk about the trouble they're 
having getting qualified and trained professionals, and well, 
if you compare nursing to other areas in the private sector, 
the private sector steps up and trains people to fit into their 
profession, whether it be at Southwest Airlines, Microsoft, or 
a Ma & Pa restaurant, they train and they feel that they want 
to have the best and the brightest working for them.
    So I guess one thing, and I know that I'm going to carry 
forward with my colleague, is finding ways--where the barriers 
are to the private sector. I'm sure there's lots of reasons, 
from the costs and there may be more incentives, but they need 
to step up to the plate and help us more than they are, and 
this is something that I plan on working with, and I'd say in a 
proactive way. I'm not into mandates and penalizing, but we 
need to find out from the professional--the hospitals what we 
can do to help them get more involved, because they're hands on 
and they need to have some training--more training internally.
    Ms. Lowe-Vaughn. Representative Porter, one of the things 
that's so exciting about the partnerships in Colorado is this 
very issue. Our partners from the private sector, the 
hospitals, the acute care, the long-term care, all of these 
partners, including education, have stepped forward and have 
put together four-to-one matches on all of the grants that 
we've been doing. They're working with all of our local 
workforce regions and private regional collaboratives to 
improve the nursing population and allied health care. So I 
think Colorado is a model for those kind of collaborative 
partnerships, and we're very pleased that industry has come to 
the table and talked to us about the very issues which started 
the dialog here.
    Mr. Porter. And I appreciate that, but I think that the 
private sector can do more.
    Ms. Lowe-Vaughn. Sure.
    Mr. Porter. And when I talk about the flat world we live 
in, I'm including the private sector because I do hear from 
private sector, not only in Nevada, but across the country, and 
their resistance to being more involved in training that they 
want someone else to do more. So I applaud those here in 
Colorado, and I'm sure that it's probably even unique. But I 
think we can do more, and we can encourage more of that.
    A question, and again, the study is great, and I've just 
had a chance to leaf through it and you've spent some time, you 
know, talking about what the clinical professional makes in the 
rural and urban areas, but if we could just summarize real 
briefly. If you were to take a practicing registered nurse, 
where they would max out in a salary, if we look at a career 
path, where they would max out as opposed to a trainer or a 
teacher or a clinical professional? How do they compare; the 
practicing nurse to the professional? And you may have touched 
upon it earlier, but I missed it.
    Ms. Dierker. Well, we didn't do a great deal on the study 
because of the time and the way in which we went about it given 
the issues at hand. But, I would say that especially with the 
competitiveness for a nurse in the hospital setting now, where 
salaries and bonuses for nurses to be employed in certain 
settings have really bumped up the clinical range. I think, you 
know, I'm going to ballpark, because we don't have a lot to go 
there, but I would say even starting, you know, you're going to 
end up with a differential of maybe, you know, it depends where 
you are, of course, but even $10,000. And so then it just sort 
of widens and it depends on your experience and----
    Mr. Porter. So $10,000 more to be an instructor.
    Ms. Dierker. Clinical--in a clinical--less to be an 
instructor. Less. I mean, we came up with an average salary for 
an entry-level faculty of $39,000. Well, you can go in as----
    Mr. Porter. Well, that's a serious problem.
    Ms. Dierker. That's a serious problem.
    Mr. Porter. When you look at a career path.
    Ms. Dierker. And it's worse in rural areas.
    Ms. Norton. The gap is really more like $20,000.
    Ms. Dierker. Right.
    Ms. Norton. At least.
    Mr. Porter. How are they, then, compared to other--let me 
use the word teacher.
    Ms. Norton. Right.
    Mr. Porter. That's easier for me. For the teacher compared 
to another field of study, how are they paid; is it similar.
    Ms. Norton. Our faculty salaries in nursing are at the mid-
range of our faculty salaries,----
    Mr. Porter. They top out at the mid-range.
    Ms. Norton.--generally based on market, and that's why I 
say the market has failed us somewhat in not really recognizing 
a shortage, and I think it will adjust. But, for example, a 
business faculty, the highest paid professors that you'll find 
on a campus or faculty in a medical school or a law school, the 
professional--and engineers are also--engineering faculty are 
in very short supply and command high salaries, often 
approaching or into the six figures. And your nursing 
professional faculty, education faculty, are going to be 
somewhat below that.
    Mr. Porter. So from a career path----
    Ms. Norton. Yeah.
    Mr. Porter.--it's difficult for someone to maybe go 
backwards.
    Ms. Norton. Exactly. That's the issue. That is absolutely 
the issue is our faculty may decide that they want to retire 
because they can make $20,000 or $30,000 a year more going back 
into clinical practice. And so how do we deal with that gap is 
an immediate issue that we have to figure out how we deal with.
    Mr. Porter. Again, looking at--the reason we're here, of 
course, is pretty broad, but specifically to the nursing 
faculty, you know, there's recruiting problems for new nurses, 
I mean, there's four or five keys, but when we get down to a 
career path----
    Ms. Norton. Right.
    Mr. Porter.--why would someone want to leave--unless they 
were just burnt out and wanted to move on in their profession, 
why would they want to become a faculty member.
    Ms. Norton. And I think it's also the job satisfaction and 
really the passion issue that Sue Carparelli mentioned. And 
maybe they just don't know any better, I don't know.
    Mr. Porter. And don't get me wrong, I applaud everyone for 
that.
    Ms. Norton. It is a matter of finding that kind of 
satisfaction, but obviously there's no--we have a huge hurdle 
in terms of convincing individuals that they want to be nursing 
faculty, although we turned away students for our Ph.D. Program 
because of lack of capacity. There's only so much pin-up 
demand. I mean, the real issue is how do we get some of these 
younger folks, when you look at the numbers of how many--how 
few practitioners in nursing generally are under the age of 30. 
It's striking. Therefore, how many----
    Mr. Porter. Excuse me, if I can interrupt. I think whatever 
the business profession, people like to have kind of a path and 
I have spent the bulk of my time in public service with primary 
and secondary education, so I know more about it, and I see a 
lot of great classroom teachers that max out that have to 
become principals and administrators just--not because they 
really want to do that, but they have to for their career path 
to support their family.
    So I guess the one thing I'm hearing consistently this 
morning and in fairness I applaud those folks that go to the 
faculty, but we need to find a way to elevate that position to 
help as part of a full career path to keep these young folks, 
when they shoot down the road, that there are some things that 
they could look forward to because we need those professionals 
to go--to become faculty. And it's very difficult, I would 
think, to make that jump.
    Ms. Norton. It is, and it's very challenging and we have to 
figure out how do we assist the market in figuring that out. I 
mean, certainly we're willing to do our part. I certainly 
understand, as an administrator of a university, that we're 
going to have to figure out how we make those adjustments and 
really respond as a market generally would respond to the fact 
that this is a shortage and we have to make it attractive.
    And I think you've also mentioned an issue that we see 
every day in the nursing profession and the teaching profession 
is the people going into leadership positions not because they 
want to be leaders, but because of the financial goals that--
and needs that they may have and the creation of true leaders 
in these professions is also crucial. Leaders and educators.
    Mrs. Musgrave. It's kind of bewildering to me that this lag 
time in the market is--I don't know, this seems like an 
exceptionally long lag time, because we're all seen this 
coming. You know, we've been talking about it for years, we 
know what the demographics are, and so this, you know, trying 
to ascertain why the market has not responded more quicker, is 
kind of bewildering to me.
    Ms. Dierker. Well, I think one of the things I certainly 
heard in the study is the sense that our constraints on higher 
education in our state, in our fiscal situation related to 
higher ed, has made it difficult for schools to respond by 
bumping up the salaries. So, because most of our nursing 
programs are publicly funded here, we don't have a lot of 
private, so that's been a big issue. It's a convergence of 
factors that have really been especially difficult.
    Mrs. Musgrave. You know, I don't know too many people that 
want to move forward in a career and take less money.
    Mr. Porter. Well, this is politics, Marilyn.
    Mrs. Musgrave. Well, you have a bigger title.
    Mr. Porter. No, that's a choice.
    Mrs. Musgrave. You begged for the job, you know.
    Mr. Porter. That's true.
    Mrs. Musgrave. Well, I thank you for your testimony today. 
It has been just extraordinary, and I know that the Congressman 
and I both would like to do more with this issue and we expect, 
President Norton, that you will let us know how we can do that. 
Again, the quality of life issue is out there for the entire 
United States, but it seems that some areas have even more 
severe shortages than others, and we need to address that.
    Congressman Porter, do you have any final remarks you'd 
like to make?
    Mr. Porter. Well, I could talk for hours, so I won't. I 
just appreciate your insights, your comments, your research, 
because if you don't tell us, as Members of Congress, we don't 
know. You know, we deal with thousands of issues every day, and 
I think we're ADD to be Members of Congress, because there are 
so many issues. But I firmly believe there's not an issue more 
important to the future of our country than our health care. 
And there's no one that's more important than the nursing 
professionals--the professionals in health care delivery, and I 
get the terms wrong, but those folks out there that are on the 
front line, the professionals, and we need to find a way to 
elevate this profession and encourage our young folks and those 
who want a career change to get into the field.
    But I firmly believe there's not a more important issue for 
us as a country than to focus on getting folks into this field. 
We can't afford to have the attrition. We can't afford to allow 
the rest of the world to move in front of us. But more 
importantly, we need to make sure that, as Members of Congress, 
we're able to give you the tools you need to get the job done, 
and that's why I really appreciate being here, I appreciate 
your insights, and we'll take what I've learned today and move 
forward. And you will be hearing from me more in the future. So 
thank you all very, very much. I appreciate it.
    And to--we brought staff here from D.C., thank you.
    Mrs. Musgrave. Yes.
    Mr. Porter. There's two that came from D.C. I'd like to 
thank our Committee staff for being here today also. Thank you.
    Mrs. Musgrave. I, too, appreciate the staff and their work 
very much. All of those issues that we deal with as Members of 
Congress, we are very much assisted by our staff and we 
appreciate them so very much. I have one of mine traveling with 
me today, Nina, so Amanda and Nina and whoever else helped out, 
we appreciate it so very much.
    I think it's somewhat paradoxical that when we talk about 
these shortages of faculty training the nurses, and we hope 
more and more will come into the profession, men and minorities 
joining, women, I believe the expectations of patients are even 
higher and higher. So we really have an interesting dilemma 
here. We expect quality, excellent health care. And thank 
goodness there are folks that want to get into the profession 
and those that want to teach, so we can have that quality of 
health care.
    Thank you very much.
    Mr. Porter. Excuse me, Marilyn, can I add one more thing?
    Mrs. Musgrave. Certainly.
    Mr. Porter. It's important to note that I think we're in 
our infancy and I think now is the time. Even with my concerns, 
I think we're in our infancy in the future of health care, and 
that's why what we're talking about today I think can make such 
a difference in the future, because what's around the corner 
with technology, and you've talked about it this morning, and 
what's around the corner in health care, and I just want to 
again to reiterate my optimism that this is a field that's 
changing with a lot of complex issues, but you get along very 
well. We deal with issues where it's divide and conquer, 
because there are so many folks on issues that hate each other. 
But what's great about this issue is there is a spirit of 
cooperation. And I know that we have our--you know, we hang our 
laundry out in different places, and maybe there are times that 
we don't agree, but that's another reason why I'm so optimistic 
about my--what I believe as the challenges for health care, 
because of the cooperation. It's really refreshing that this 
industry, even with its differences and its competing partners, 
it really works well together. So I wanted to really conclude 
with saying I think we have a lot of work to do, but we're in 
our infancy and a lot of good things can happen.
    Thank you. I promise I'm finished.
    Mrs. Musgrave. We appreciate your comments very much. Thank 
you for coming to this hearing today, and we appreciate 
everyone being here.
    The meeting is adjourned.
    [Whereupon, at 11:45 a.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
